A-001

CAPITAL CASE
No.

IN THE SUPREME COURT OF THE UNITED STATES

CHARLES MICHAEL HALL
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit

APPENDIX TO PETITION

FREDERICK A. DUCHARDT, JR.
COUNSEL OF RECORD
Mo.Bar Enrollment Number 28868
P.O. Box 216
Trimble MO 64492
Phone: 816-213-0782
Fax: 816-635-5155
e-mail: fduchardt@yahoo.com

MICHAEL W. WALKER
MO Bar Enrollment Number 29425
5545 N. Oak Tfwy, Suite 8
Kansas City MO 64118
Ph. 816-455-6511
Fax 816-455-6594
e-mail: mwwalk@sbcglobal.net

ATTORNEYS FOR PETITIONER

A-002

APPENDIX TABLE OF CONTENTS
Appendix 1

Eighth Circuit Opinion

A-3

Appendix 2

Eighth Circuit Denial of Motion for Rehearing

A-16

Appendix 3

March 19, 2020 Order extending deadlines

A-18

Appendix 4

Magistrate’s Report and Recommendation re Instructions

A-21

Appendix 5

District Court’s Adoption of Report and Recommendation

A-24

Appendix 6

District Court’s Judgment and Sentence

A-27

Appendix 7

Citation of Constitutional, Statutory and Rule Provisions

A-32

Appendix 8

List of instruction methods in all FDPA cases

A-36

Appendix 9

Penalty Phase Instructions Given

A-50

Appendix 10 Instruction A proffered by Mr. Hall

A-134

Appendix 11 Instruction B proffered by Mr. Hall

A-140

Appendix 12 Penalty Phase Verdict

A-144

Appendix 13 Jury Notes

A-156

Appendix 14 Superceding Indictment

A-161

Certificate of Service

A-168

A-003

APPENDIX 1

United States v. Hall, 945 F.3d 1035 (2019)

A-004

945 F.3d 1035
United States Court of Appeals, Eighth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Charles Michael HALL, Defendant-Appellant.
No. 14-2742
|
Submitted: January 15, 2019
|
Filed: December 19, 2019
|
Rehearing and Rehearing En

[7] trial court did not abuse its discretion in excluding
comparative proportionality evidence.
Affirmed.

West Headnotes (18)
[1]

Criminal Law

Synopsis
Background: Defendant was convicted in the United States
District Court for the Western District of Missouri, Gary A.
Fenner, Senior District Judge, of first-degree murder, and
was subsequently, 2014 WL 1356692, sentenced to death.
Defendant appealed, challenging his sentence.

[2]

[2] jury's consideration of defendant's grave indifference to
human life during penalty phase was proper;
[3]

Criminal Law
presumptions

Preferences or

Sentencing and Punishment
evidence or aggravating factor

Dual use of

Jury's consideration during penalty phase of
capital murder trial of aggravating factor of
defendant's grave indifference to human life was
proper, under death penalty statute, even though
jury had already considered defendant's mental
state in determining whether he was eligible for
the death penalty. 18 U.S.C.A. §§ 3591(a)(2),
3592(c)(5).

[4] trial court did not abuse its discretion in limiting scope of
defense counsel's cross-examination of government's mental
health expert;
[5] probative value of defendant's threats and prior crimes was
not outweighed by danger of unfair prejudice during penalty
phase;
[6] trial court did not abuse its discretion in admitting
defendant's letters during penalty phase; and

Prejudice; fair trial

A joint trial is often preferable when the joined
defendants’ criminal conduct arises out of a
single chain of events, because it gives the
jury a chance to assign fairly the respective
responsibilities of each defendant.

[1] District Court's failure to sever joint guilt phase did not
unfairly prejudice defendant during penalty phase;

[3] evidence was sufficient to support finding that defendant
killed victim in an especially heinous, cruel, or depraved
manner;

Severance

District Court's failure to sever joint guilt phase
in first-degree capital murder trial did not
unfairly prejudice defendant during joint penalty
phase, as required to demonstrate due process
violation; although joint trial resulted in same
jury hearing co-defendant's guilt phase defense
that defendant was driving force behind the
murder and prosecution's case for the death
penalty, co-defendant's guilt-phase evidence did
not unfairly infect the sentencing proceeding
with unfairness. U.S. Const. Amend. 5.

Banc Denied March 17, 2020 *

Holdings: The Court of Appeals, Stras, Circuit Judge, held
that:

Constitutional Law

[4]

Sentencing and Punishment
circumstances in general

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Aggravating

1

United States v. Hall, 945 F.3d 1035 (2019)

A-005
his difficulties with chronic gastrointestinal
disease, which were not disputed by prosecution,
amounted to harmless error, where record
demonstrated that at least some jurors assigned
some weight to these factors. 18 U.S.C.A. §
3595(c)(2).

The federal death-penalty statute divides
aggravating factors into two categories: the listed
ones that the jury is required to consider and
other aggravating factors that it may consider. 18
U.S.C.A. § 3592(c).

[5]

Sentencing and Punishment
evidence or aggravating factor

Dual use of
[8]

The federal death-penalty statute does not
limit the jury to only consider a defendant’s
mental state once; to the contrary, the statute
contemplates the possibility that the jury
will do so at least twice, that is, first
when determining whether the death penalty
is on the table at all, and again when
evaluating the aggravating factors presented
by the government. 18 U.S.C.A. §§ 3592(a),
3592(c).

[6]

Sentencing and Punishment
heinousness, or atrocity

Vileness,

Evidence was sufficient to support finding
during penalty phase of capital murder trial
that defendant killed victim in an especially
heinous, cruel, or depraved manner; defendant
initially recounted to investigators how he bound
victim's hands and feet, stuffed rag in his mouth,
blindfolded him, watched co-defendant assault
him, and then stood on victim's throat until
he stopped breathing, he also acknowledged
that if victim had not been available, he
would have randomly selected another person
to kill, and medical examiner confirmed that
victim's injuries were consistent with defendant's
account, estimated that it likely took more than
three minutes for victim to die, and stated that
victim possibly remained conscious nearly the
entire time. 18 U.S.C.A. § 3592(c)(6).

[7]

Sentencing and Punishment
and reversible error

Harmless

Any mistake jury likely made during penalty
phase of capital murder trial in finding nonexistence of mitigating factors of defendant's
good behavior in prison after murder and

Sentencing and Punishment
illness or disability

Physical

Sentencing and Punishment
actual or potential rehabilitation

Remorse and

A jury is not required during penalty phase of
capital murder trial to give any mitigating weight
to mitigating factors of defendant's post-murder
good behavior or medical condition, even though
defendant has a right to present them to the jury.
18 U.S.C.A. § 3595(c)(2).

[9]

Sentencing and
Punishment
Admissibility
Under the federal death-penalty statute, the
standard for admission of evidence at penaltyphase proceedings is relaxed: parties may
present ordinarily inadmissible evidence without
worrying about the federal rules of evidence. 18
U.S.C.A. § 3593(c).

[10]

Sentencing and
Punishment
Admissibility
Sentencing and Punishment
evidence

Reception of

During the penalty phase of a capital murder trial,
under the death penalty statute, the trial court has
more gatekeeping power, even though a greater
range of evidence can potentially pass through
the door. 18 U.S.C.A. § 3593(c).

[11]

Sentencing and Punishment
evidence

Expert

Trial court did not abuse its discretion during
penalty phase of capital murder trial in limiting
scope of defense counsel's cross-examination
of government's mental health expert, who was

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Hall, 945 F.3d 1035 (2019)

called to rebut opinions of defense experts
who testified that defendant's bipolar disorder
caused him to lose self-control, by not allowing
questions about judge's refusal in unrelated
case to appoint him as expert, where trial
court did allow thorough cross-examination of
expert about false statements he admittedly
made during another trial that led to overturned
conviction, judge's decision not to appoint expert
in unrelated case was due to false testimony
during other trial, so that additional questioning
had low probative value, and it carried high risk
of confusing or misleading jury. 18 U.S.C.A. §§
3593(c), 3595(c)(2).

[12]

Criminal Law
proceeding

A-006
sentence, and setting forth in detail reasons that
he believed he was eligible for death penalty;
the letters were highly probative of several
aggravating factors, including defendant's future
dangerousness, lack of remorse, and indifference
to human life, and although such statements
would be excluded during guilt phase as
statements made during plea negotiations, that
evidentiary rule did not apply during penalty
phase. 18 U.S.C.A. § 3593(c).

[15]

Trial court did not abuse its discretion during
penalty phase of capital murder trial in excluding
comparative proportionality evidence, consisting
of charts and lists summarizing aggravating and
mitigating circumstances in other similar death
penalty cases; evidence had limited probative
value, as jury had no way of knowing whether
selected cases were representative, admitting the
evidence could have opened door to debate about
whether it accurately captured details of the
other cases, and using the evidence could have
invited jurors to tally aggravating and mitigating
factors, rather than make requisite individualized
determinations. 18 U.S.C.A. § 3593(c).

Nature or stage of

The Confrontation Clause does not apply to
sentencing proceedings, even those involving a
potential death sentence. U.S. Const. Amend. 6.

[13]

Sentencing and Punishment
Other
offenses, charges, or misconduct
Probative value of evidence of threats of violence
defendant made against various officials,
including threats to bomb former President's
home, statements defendant made about wanting
to harm people in prison, and his numerous
prior crimes, including non-violent ones, was
not outweighed by danger of unfair prejudice,
during penalty phase of capital murder trial;
although some of the older convictions and
non-violent crimes were of mixed value,
evidence collectively was highly relevant to
prove aggravating factor of defendant's future
dangerousness. 18 U.S.C.A. § 3593(c).

[14]

[16]

Trial court did not abuse its discretion during
penalty phase of capital murder trial in admitting
letters defendant wrote to prosecutor and defense
counsel explaining that he wanted a death

Sentencing and
Punishment
Individualized determination
Sentencing and Punishment
Manner and
effect of weighing or considering factors
Under the federal death penalty statute, the
jury is required to make an individualized
determination, balancing the aggravating and
mitigating factors presented during the penalty
phase of a capital murder trial, based on the facts
and circumstances of each case. 18 U.S.C.A. §§
3591(a), 3593(c).

Criminal Law
Plea Negotiations and
Offers to Plead Guilty
Sentencing and
Punishment
Documentary evidence

Sentencing and
Punishment
Documentary evidence

[17]

Sentencing and
Punishment
Deliberations
Trial court's responses to two notes from
jury which indicated that they could not
reach a unanimous decision, while they were

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Hall, 945 F.3d 1035 (2019)

A-007

deliberating during penalty phase of capital
murder trial, advising jury to continue its
deliberations and asking them to try to reach
unanimous verdict, were not coercive; jury had
been deliberating for less than a full day at time it
sent notes, court did not tell jurors to reconsider
their positions or that they had to reach a
unanimous verdict in the end, and although jury
only continue to deliberate for about another
hour, it requested exhibits, suggesting that they
continued to examine the evidence and debate
whether death penalty was justified.

[18]

Criminal Law
together

Time of keeping jury

Courts incontestably have the authority to insist
that jurors deliberate further, at least under
certain circumstances.

*1038 Appeal from United States District Court for the
Western District of Missouri–Springfield
Attorneys and Law Firms
Frederick A. Duchardt, Jr., Trimble, MO, argued (Robert D.
Lewis, Springfield, MO, Michael W. Walker, Kansas City,
MO, on the brief), for appellant.
Francesco Valentini, Appellate Section, Crim. Div., U.S.
Dept. of Justice, Washington, DC, argued (John P. Cronan,
Acting Asst. Atty. Gen., Matthew S. Minor, Deputy Asst.
Atty. Gen., James P. Peterson, Capital Case Section, U.S.
Dept. of Justice, Washington, DC, Timothy A. Garrison, U.S.
Atty., Kansas City, MO, Randall D. Eggert, Asst. U.S. Atty.,
Springfield, MO, on the brief), for appellee.
Before LOKEN, GRASZ, and STRAS, Circuit Judges.
Opinion

sentence and challenges, among other issues, the aggravating
and mitigating factors the jury considered, the evidence it
heard, and the instructions it received. We affirm.

I.
The three men were serving federal sentences in a mentalhealth ward at a medical center for federal prisoners
in Springfield, Missouri, when Hall and *1039 Coonce
attacked Castro-Rodriguez. As Hall admitted, they had
discussed the crime two or three days in advance. Hall has
said that killing calms him and that if Castro-Rodriguez had
not been available, he “would have randomly selected another
inmate” to kill instead.
According to the testimony of one inmate, Hall lured CastroRodriguez by promising him money if he would pretend to be
a hostage. Hall allegedly told him that if he would go along,
prison officials might agree to give them additional privileges,
including cable television, in exchange for his release. After
Castro-Rodriguez agreed, Hall and Coonce followed him into
his cell, where they made him lie on his back, bound his hands
and feet, stuffed a rag in his mouth, and blindfolded him. Once
he could no longer move or call for help, Coonce repeatedly
kicked him and stomped on his neck. Hall then stood on
his throat. After several minutes, Hall stepped off, checked
for a pulse, and punched his stomach “to see if he would
react.” An autopsy revealed that Castro-Rodriguez died from
suffocation caused by compression of his larynx, although
he also had internal bleeding, scrapes, and bruises from the
repeated blows to his head, neck, and chest.
Hall and Coonce were tried together. The jury found them
both guilty after deliberating for less than three hours. At
a joint sentencing hearing, the jury heard evidence about
various aggravating and mitigating factors. After deliberating
again—this time into a second day—the jury unanimously
recommended a death sentence for both of them. The district
court 1 accepted the jury’s recommendation and entered
judgment.

STRAS, Circuit Judge.
Charles Hall and Wesley Coonce killed Victor CastroRodriguez after brutally beating him. A jury found Hall guilty
of first-degree murder, see 18 U.S.C. § 1111(b), and following
the presentation of a number of aggravating and mitigating
factors, returned a death sentence. Hall appeals only his

II.
[1] The first question is whether the district court abused its
discretion by trying Hall and Coonce together. See United
States v. Ortiz, 315 F.3d 873, 898 (8th Cir. 2002). Both
initially objected to a joint trial, but after the jury found

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Hall, 945 F.3d 1035 (2019)

A-008

them guilty, Hall withdrew his objection to a joint sentencing
hearing. His position now is that the refusal to sever the
proceedings at the guilt phase allowed the jury to hear
evidence that unfairly prejudiced him during the penalty
phase.
[2] A joint trial is “often preferable when the joined
defendants’ criminal conduct arises out of a single chain of
events,” because it gives the jury a chance “to assign fairly
the respective responsibilities of each defendant.” Kansas
v. Carr, ––– U.S. ––––, 136 S. Ct. 633, 645, 193 L.Ed.2d
535 (2016) (citation omitted). This case is a good example.
Hall and Coonce agreed ahead of time to murder CastroRodriguez. Once they entered his cell together, Hall tied him
up, Coonce took the lead in assaulting him, and then Hall dealt
the fatal blow by standing on his throat. They acted side by
side at every step, so it was logical for the district court to
allow “their fates [to be] determined by a single jury.” Id. at
646.
To be sure, holding a joint trial resulted in the same jury
hearing both Coonce’s guilt-phase defense that Hall was the
driving force behind the crime and the government’s case for
the death penalty. This made the proceeding unfair, according
to Hall, because Coonce’s theory “logically supported” and
supplemented the government’s penalty-phase argument that
Hall would likely be violent in the future.
*1040 Even if these arguments overlapped to some degree,
Hall cannot establish that Coonce’s guilt-phase evidence
“so infected the sentencing proceeding with unfairness
as to render the jury’s imposition of the death penalty”
unconstitutional. Id. at 644–45 (citation omitted). In arguing
that he was less blameworthy than Hall, Coonce never
suggested that Hall, as the alleged mastermind, would do
something similarly violent in the future. Nor did the
government connect those dots. Its theory was simpler:
Hall was dangerous because he repeatedly said he would
commit crimes and had a lengthy history of threatening
violence. See infra Part IV.B (addressing the admissibility of
the government’s evidence). For us to accept Hall’s theory
that the joint trial unfairly prejudiced him would require
“an exercise in speculation, rather than reasoned judgment.”
Romano v. Oklahoma, 512 U.S. 1, 14, 114 S.Ct. 2004, 129
L.Ed.2d 1 (1994). And speculation is not enough. See Carr,
136 S. Ct. at 646.

III.
Hall’s next group of challenges focuses on the aggravating
and mitigating factors presented to the jury. In determining
whether a death sentence was “justif[ied],” the jury’s
task during the penalty phase was to “consider” whether
the aggravating factors “sufficiently outweigh[ed]” the
mitigating factors. 18 U.S.C. § 3593(e); see also id. § 3592
(identifying potential aggravating and mitigating factors).

A.
[3]
[4] The federal death-penalty statute divides
aggravating factors into two categories: the listed ones that the
jury “shall” consider and those “other aggravating factor[s]”
that it “may” consider. Id. § 3592(c). Despite this openended language, Hall claims that one unlisted factor, grave
indifference to human life, should never have been submitted
to the jury. 2 He points out that the jury already considered his
mental state once in determining that he was eligible for the
death penalty, so doing it again improperly counted the same
factor twice. The premise is correct, but his conclusion is not.
[5] Nothing in the federal death-penalty statute says that
the jury can only consider a defendant’s mental state once.
To the contrary, the statute contemplates the possibility that
the jury will do so at least twice, first when determining
whether the death penalty is on the table at all and again
when evaluating the aggravating factors presented by the
government. Compare id. § 3591(a)(2) (listing the various
mental states giving rise to death-sentence eligibility), with
id. § 3592(c)(5) (requiring a “grave risk of death”); id. §
3592(c)(6) (committing the offense in an “especially heinous,
cruel, or depraved manner”); id. § 3592(c)(9) (demonstrating
“substantial planning and premeditation”); id. § 3592(c)(16)
(having the intent to kill or attempting “to kill more than one
person in a single criminal episode”). And some of the factors
even seem to overlap with one another, further weakening
Hall’s double-counting theory. See, e.g., id. § 3592(a)(1)
(acting with a “significantly impaired” capacity to “appreciate
the wrongfulness” of the conduct); id. *1041 § 3592(a)(6)
(carrying out the offense “under severe mental or emotional
disturbance”). Hall’s argument, in other words, is contrary
to the statute, which constructs a two-stage process with
overlapping inquiries, see id. §§ 3591(a)(2), 3592(a), (c), and
is inclusive when it comes to the factors that a jury may
consider, see id. § 3592(c).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Hall, 945 F.3d 1035 (2019)

A-009

B.
[6] Hall challenges another aggravating factor for a different
reason. He argues that the government did not provide enough
evidence for the jury to find that he killed Castro-Rodriguez
in an especially heinous, cruel, or depraved manner. See id.
§ 3592(c)(6).
In explaining this factor, the district court told the jury that the
killing was heinous if it was “extremely wicked or shockingly
evil”; it was cruel if Hall “intended to inflict a high degree
of pain”; and it was depraved if Hall “relished the killing or
showed indifference to [Castro-Rodriguez’s] suffering.” The
government also had to show “serious physical abuse,” which
the instructions defined as “a significant or considerable
amount of injury or damage to [Castro-Rodriguez’s] body.”
See 18 U.S.C. § 3592(c)(6) (requiring “torture” or “serious
physical abuse”); see also United States v. Montgomery,
635 F.3d 1074, 1095–96 (8th Cir. 2011) (defining “serious
physical abuse” to include “inflict[ing] suffering ... above
and beyond that necessary to cause death” (internal quotation
marks and citation omitted)).
Contrary to Hall’s suggestion, the government’s evidence
was sufficient to find that the killing was heinous, cruel,
or depraved, and that it involved the infliction of serious
physical abuse. The primary source of the government’s
evidence was Hall’s initial statement to investigators shortly
after the murder. In it, he recounted how he had bound
Castro-Rodriguez’s hands and feet, stuffed a rag in his
mouth, blindfolded him, watched Coonce assault him, and
then stood on his throat until he stopped breathing. He also
acknowledged the senselessness of the crime, explaining that
if Castro-Rodriguez had not been available, he “would have
randomly selected another inmate and killed him” instead.
The medical examiner, after describing the injuries and
confirming that they were consistent with Hall’s account,
estimated that it likely took “more than three minutes, maybe
[even] five minutes” for Castro-Rodriguez to die and that
it was possible that he remained conscious nearly the entire
time.
From this evidence, a reasonable juror could conclude that
Hall intended to “inflict a high degree of pain” and was
“indifferen[t] to [Castro-Rodriguez’s] suffering.” The fact
that Castro-Rodriguez had been tricked and rendered helpless
only increased his distress, and the prolonged beating inflicted

gratuitous pain. And even as the assault was coming to a close,
Hall extended Castro-Rodriguez’s suffering by suffocating
him slowly, even as he likely remained conscious.
It is true, as Hall argues, that other death-penalty cases have
involved greater cruelty and more extreme violence. See, e.g.,
id. at 1079–80. But those cases do not set the floor, and the fact
that some murders are even more heinous, cruel, or depraved
does not mean that this one was not.

C.
[7] Turning to the mitigating factors, the district court
allowed the jury to consider, as relevant here, Hall’s good
behavior in prison after the murder and his difficulties with
a chronic gastrointestinal disease, neither of which was
disputed factually. *1042 Even so, some jurors found that
the factors did not “exist[ ],” which Hall attributes to a failure
to follow the court’s instructions to make factual findings on
each of the mitigating factors first, before deciding whether
to assign them weight.
We agree that the most likely explanation is that some jurors
misunderstood the instructions on the verdict form. The form
required the foreperson to record “the number of jurors who ...
found the existence of [each] mitigating factor to be proven
by a preponderance of the evidence,” yet she wrote “6” in
the space for Hall’s medical condition and “0” in the other.
Following their discharge, some jurors informed the district
court that the foreperson may have recorded the number
who voted to give these factors mitigating weight, rather
than the number who found that they “had been proved.”
See Fed. R. Evid. 606(b)(2)(C) (providing an exception for
juror testimony when it involves “a mistake ... in entering the
verdict on the verdict form”). Given that the government did
not dispute either factor, however, there was no reason for the
foreperson to write anything other than “12” for both.
[8] Unlike Hall, however, we are convinced beyond a
reasonable doubt that any mistake the jury may have made
was harmless. See 18 U.S.C. § 3595(c)(2). As a baseline
principle, the jurors were not required to give any mitigating
weight to Hall’s post-murder good behavior or his medical
condition, see United States v. Paul, 217 F.3d 989, 999 (8th
Cir. 2000), even if he had a right to present them to the jury.
Only if the jurors assigned no weight to them because they
believed, “as a matter of law,” that they were “unable even to
consider the evidence” would a constitutional problem arise.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Hall, 945 F.3d 1035 (2019)

A-010

Eddings v. Oklahoma, 455 U.S. 104, 113, 102 S.Ct. 869, 71
L.Ed.2d 1 (1982).
Nothing in the record suggests that this was the case. To
the contrary, the fact that six jurors assigned some weight
to Hall’s medical condition suggests that they understood
that it was their call to make. See Paul, 217 F.3d at 1000
(explaining that the test is whether “there exists a reasonable
likelihood that the jurors believed themselves precluded from
considering relevant mitigating evidence”). There is, in short,
no reason to believe that marking the form with one piece of
information rather than another affected the jury’s decisionmaking or changed its overall conclusion.

IV.
[9] [10] Hall also challenges several evidentiary rulings.
Under the federal death-penalty statute, the standard for
admission of evidence at penalty-phase proceedings is
“relaxed”: parties may present ordinarily inadmissible
evidence without worrying about the Federal Rules of
Evidence. United States v. Purkey, 428 F.3d 738, 758 (8th
Cir. 2005); see 18 U.S.C. § 3593(c). The idea is that the
more information the jury has when choosing between life
and death, the better. See United States v. Lee, 274 F.3d 485,
494 (8th Cir. 2001). Yet the statute also vests the district court
with broad discretion to exclude evidence if it is irrelevant or
“its probative value is outweighed by the danger of creating
unfair prejudice, confusing the issues, or misleading the
jury.” 18 U.S.C. § 3593(c). Compare id. (requiring only
that the probative value be “outweighed” by the “danger[s]”
created by the evidence), with Fed. R. Evid. 403 (adopting
a similar standard, but requiring the probative value to be
“substantially outweighed” by these risks (emphasis added)).
The court has more gatekeeping power, in other words,
even though a greater range of evidence can potentially pass
through the door. See Purkey, 428 F.3d at 756.

*1043 A.
[11] The first evidentiary ruling that we have been asked to
review was the decision to limit the scope of Dr. Park Dietz’s
cross-examination. The government called him to rebut the
opinions of several mental-health experts who testified that
Hall’s bipolar disorder caused him to lose self-control. While
explaining his qualifications, Dr. Dietz stated that he had been
asked to testify in over one thousand cases, including some

high-profile prosecutions. He admitted that in one of them, he
had made false statements that eventually led to an overturned
conviction. See Yates v. State, 171 S.W.3d 215, 221–22 (Tex.
App. 2005).
[12] The district court allowed Hall’s attorney to thoroughly
question Dr. Dietz about what happened in Yates. But it would
not allow him to question Dr. Dietz about a judge’s refusal
to appoint him as a court-appointed expert in another case,
Gates v. Chappell, No. C 88-2779 WHA (N.D. Cal.). Because
the judge in Gates had refused to appoint Dr. Dietz based
solely on concerns about his impartiality after Yates, the court
reasoned, there was little to be gained from the additional
questioning. In Hall’s view, cutting off this line of inquiry
was an abuse of discretion. 3 See 18 U.S.C. § 3595(c)(2). We
disagree.
The additional questioning had low probative value even if it
was arguably relevant. The first possibility was that it could
have shed light on Dr. Dietz’s credibility. But the opinion of
a single district judge on his fitness for a different type of
role in an unrelated case only marginally assisted the jurors in
answering the critical question they faced: should they believe
his testimony?
The second possibility was that it could have rebutted Dr.
Dietz’s claim that he had testified in over one thousand cases.
See id. § 3593(c) (allowing both the government and the
defendant to “rebut any information received at the hearing”).
This is an impressive-sounding number, and as Hall points
out, Gates was one case in which Dr. Dietz was not allowed
to testify. Still, the evidence had limited probative value,
especially after Dr. Dietz admitted that the figure was not as
impressive as it sounded. Earlier in his career, he explained,
he worked in a hospital and participated in about a dozen
commitment hearings per week. More recently, by contrast,
he had not appeared in court nearly as often.
Not only was the probative value low, it carried a high risk
of confusing or misleading the jury. It is unlikely that the
jurors could have understood the differences between the
roles of a court-appointed expert and a government witness,
at least without additional factual development. In fact, some
may well have concluded that a federal judge’s decision
not to appoint Dr. Dietz superseded their own opinions
about his testimony, no matter what he said about Hall. Cf.
Rosales-Lopez v. United States, 451 U.S. 182, 188, 101 S.Ct.
1629, 68 L.Ed.2d 22 (1981) (stating that jurors “must reach
conclusions as to impartiality and credibility by relying on

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Hall, 945 F.3d 1035 (2019)

A-011

their own evaluations of demeanor evidence and of responses
to questions”). Given these risks, we cannot say that the court
abused its discretion in cutting off this line of questioning. See
id.

*1044 B.
[13] Another contested evidentiary ruling was allowing the
government to prove Hall’s future dangerousness through,
among other things, evidence of threats Hall had made against
various officials, his pre-murder misbehavior in prison, and
his numerous prior crimes. According to Hall, this evidence
was minimally probative and highly prejudicial and never
should have been admitted.
During the penalty-phase proceedings, the jury heard that Hall
had threatened to kill a federal judge and prosecutors; to bomb
various sensitive locations, including an airport and President
George H.W. Bush’s home; and to orchestrate a mass
poisoning. This evidence was presented along with various
statements that he had made to psychiatrists, psychologists,
nurses, and other staff about wanting to harm or kill people in
prison. As the government pointed out, he even acted on those
desires once before murdering Castro-Rodriguez, when he
assaulted another inmate. Although the victim suffered only
minor injuries, Hall later stated in a letter to a psychiatrist that
his intent “wasn’t ... just to punch him. ... [It] was to choke
him to death.” The letter went on to say that if he “was on
the open unit today, [killing someone] would” have been his
“intent and goal.”
The jury also heard that Hall had difficulty following the
rules, both inside and outside of prison. The government
introduced evidence that he had been convicted of a number
of crimes over a 25-year period, including burglary, forgery,
theft, false public alarm, receiving stolen goods, and assault.
His behavior was problematic in prison too, where he fought,
gambled, and possessed contraband prior to the murder.
All of this evidence was relevant. See 18 U.S.C. § 3593(c).
A reasonable juror could view Hall’s threats as reflecting a
propensity for violence. It is true, of course, that Hall could
have been bluffing, as he now claims, knowing full well that
he could not possibly carry out some of his threats. But that
was a credibility determination for the jury to make. See
id.; see also Lee, 274 F.3d at 494 (discussing the “very low
barriers to the admission of evidence”).

To be sure, the evidence was of mixed value. For example,
Hall’s decades-old convictions, some for nonviolent crimes,
arguably shed less light on his future dangerousness. But
collectively, the evidence tended to show that Hall wanted to
hurt others and might do so if given an opportunity, regardless
of where he was or what constraints were placed on him.
On the other side of the scale, the evidence was only
prejudicial in the sense that it made it hard for Hall to argue
that he was not dangerous. But there was nothing unfair
about its admission. Cf. United States v. Looking Cloud, 419
F.3d 781, 785 (8th Cir. 2005) (“Evidence is not unfairly
prejudicial because it tends to prove guilt, but because it tends
to encourage the jury to find guilt from improper reasoning.”).
It did not cause confusion or lead the jury to consider a factor
it should not have in making its sentencing recommendation.
Without showing that one of those things may have occurred,
Hall has given us little reason to question the district court’s
discretionary decision to admit it. See Lee, 274 F.3d at 494
(“[D]etermining whether there is a threat of unfair prejudice
[under 18 U.S.C. § 3593(c)] is a fact specific inquiry ....”).

C.
[14] Hall also questions the district court’s decision to allow
the government to introduce two letters that he sent to the
prosecutor before trial. In the first, he *1045 expressed his
desire to be executed and offered to “enter a ple[a] of guilty”
if the prosecutor “could guarantee” that he received a death
sentence. He also explained that “[t]he only thing that [would]
stop [him] from killing again [was] to put [him] to death.” In
the second, which was delivered both to the prosecutor and to
his own attorney, he explained in detail why he thought he was
eligible for the death penalty, directed his attorney to work
toward a death sentence, and requested a guilty plea “as long
as” the prosecutor would recommend one. The government
did not respond to either letter.
The district court admitted both letters during the guilt phase
of Hall’s trial, but they played a significant role at sentencing
too. See 18 U.S.C. § 3593(c) (allowing the jury to consider
information from the guilt phase when evaluating aggravating
and mitigating factors). Because Hall is appealing only his
sentence, however, we review their admissibility under the
“more lenient” evidentiary standard applicable at the penalty
phase, Purkey, 428 F.3d at 756, leaving aside whether the jury
should have seen them earlier when it was evaluating Hall’s
guilt. Coonce, 932 F.3d at 637.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Hall, 945 F.3d 1035 (2019)

A-012

Under this standard, the district court did not abuse its
discretion when it admitted the letters. They contained
expressions of guilt and threats to kill again, both of
which were highly probative of several aggravating factors,
including his future dangerousness, lack of remorse, and
indifference to human life.
It does not matter that admitting the letters left him with an
uphill battle during the penalty-phase proceedings, because
there was nothing unfair about their admission, even if, as
Hall claims, his “notions about the case changed dramatically
after [he] benefitted from different legal advice offered by
new counsel.” Cf. Looking Cloud, 419 F.3d at 785 (explaining
that “unfair prejudice” refers to encouraging “the jury to find
guilt from improper reasoning”). Just because he changed
his mind does not mean that it was unfair to use his earlier
admissions against him. 4 Cf. United States v. Muhlenbruch,
634 F.3d 987, 1001 (8th Cir. 2011) (holding that a district
court did not abuse its discretion under Rule 403 when it
permitted the government to play a defendant’s videotaped
confession).
His argument to the contrary is really just an attempt to
import Federal Rule of Evidence 410(a)(4)—which prohibits
using statements made during plea negotiations against a
defendant at trial—into penalty-phase proceedings. But this
theory gets him nowhere because, according to the federal
death-penalty statute, “[i]nformation is admissible” at the
sentencing hearing “regardless of its admissibility under the
rules governing admission of evidence at criminal trials.” 18
U.S.C. § 3593(c). So it makes no difference whether, as Hall
insists, the statements would otherwise count as having been
“made during plea negotiations.” They were admissible either
way.

*1046 D.
[15] The final evidentiary issue was the exclusion of Hall’s
“comparative proportionality” evidence, which summarized
the aggravating and mitigating circumstances in other deathpenalty cases. Hall’s theory was that the jury might be less
likely to think that he deserved the death penalty if it could
evaluate how he compared to others who committed similar
crimes. The evidence consisted of short summaries of sixteen
cases—all involving murders committed in federal prison—
along with a list of the aggravating and mitigating factors

in each case. Also included were three spreadsheets that
repackaged this information in various ways.
As the district court recognized, the evidence had limited
probative value. The most obvious shortcoming was that no
one had any way of knowing whether the selected cases were
representative. According to Hall’s attorney, they shared three
characteristics: each went to trial, a death sentence was on the
table, and information was available from public sources or
the attorneys who tried them. This approach made sense from
a practical, information-gathering perspective, but relevant
information could have been missing for a variety of reasons.
Indeed, Hall has trimmed his list down even more on appeal.
The explanation, according to his brief, is that “the detailed
facts ... necessary for a proper comparative analysis could
not be assembled” for five of his original sixteen cases. It
is unclear what, if anything, changed, but this development
highlights the problems posed by the evidence.
The presentation of the cases posed other potential problems.
The nuances were arguably lost in the long lists of aggravating
and mitigating factors that he provided. For example,
two cases might involve the same future-dangerousness
aggravating factor, but a jury might find a death sentence
appropriate in one case and not the other, leaving the jurors in
this case to wonder why. Compare United States v. Houston,
648 F.3d 806, 811–12 (9th Cir. 2011) (involving a life
sentence for a racially-motivated-stabbing death), with United
States v. Snarr, 704 F.3d 368, 377 (5th Cir. 2013) (imposing a
death sentence for a stabbing attack that killed a fellow inmate
and left two prison guards wounded). Admitting the evidence
could have opened the door to a debate about whether Hall’s
lists and spreadsheets adequately captured their details, not to
mention whether they were similar enough to Hall’s case. If
so, the potential for confusion and distraction was clear.
[16] Another more serious risk was also looming. Using
lists and spreadsheets potentially invited the jurors to view
their assignment in Hall’s case in similar terms: simply tally
up the aggravating and mitigating factors and see where
he fell on the list, rather than undertake an “individualized
determination” based on the facts and circumstances of his
case. Tuilaepa v. California, 512 U.S. 967, 972, 114 S.Ct.
2630, 129 L.Ed.2d 750 (1994) (citation omitted); see Purkey,
428 F.3d at 762 (explaining that the federal death-penalty
statute “avoids arbitrary death sentences by requiring juries
to weigh [the] aggravating and mitigating factors rather than
[just] tally the factors on each side and declare a winner based
on sheer numbers”).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Hall, 945 F.3d 1035 (2019)

A-013

It is possible, of course, that the district court could have
found a way to manage these difficulties. But this was a
discretionary call, and the court was entitled to conclude that
admitting the evidence would have caused more trouble than
it was worth. 5 See 18 U.S.C. § 3593(c) (giving the *1047
district court broad authority as gatekeeper).

V.
Hall’s remaining challenge is to the district court’s response
to two notes from the jury foreperson during penalty-phase
deliberations. One of them stated that the jury could not
reach a unanimous decision on Hall’s sentence, but the court
directed the jury to keep trying. Hall’s position is that it felt
pressured after that point to recommend a death sentence.
[17] In evaluating Hall’s argument, context matters. See
United States v. Walrath, 324 F.3d 966, 970 (8th Cir.
2003) (listing factors that help identify impermissible jury
coercion). The jury began its deliberations on Friday
afternoon, had the weekend off, and then resumed on Monday
morning. Shortly after lunch, the foreperson sent a note asking
if “the lawyers have the option to poll the jury if [it] can’t
reach a unanimous decision[?]” The court replied that the
jury “w[ould] not be polled if a nonunanimous verdict [was]
accepted.” The foreperson then sent a second note, this time
announcing that the jury had reached a decision on Coonce,
but “with 100% certainty” could not reach one on Hall.
Hall’s attorney urged the court to declare that the jury was
“hung,” which would have resulted in a life sentence. See
Jones v. United States, 527 U.S. 373, 380–81, 119 S.Ct. 2090,
144 L.Ed.2d 370 (1999). Instead, the court told the jury to
“continue [its] deliberations, and [to] try to reach unanimous
verdicts.” After deliberating for approximately another hour,
the jury returned a recommendation of death.
[18] The district court was faced with a choice: declare the
jury deadlocked or direct it to continue its deliberations.
Given that the jury had been deliberating for less than one
full day, it sent the jury back so that it could keep trying.
See United States v. Hagan, 412 F.3d 887, 890 (8th Cir.
2005) (reviewing a coercive-instruction claim for an abuse of
discretion). In making this decision, the court did not have to
automatically acquiesce in the jury’s assessment. Lowenfield
v. Phelps, 484 U.S. 231, 238, 108 S.Ct. 546, 98 L.Ed.2d 568
(1988). Rather, as the Supreme Court has recognized, courts

“incontestably” have the “authority to insist that [jurors]
deliberate further,” at least under certain circumstances. Id.
This is one of those circumstances. The jury had previously
been instructed that its task was to choose between life in
prison and a death sentence. Telling the jurors to deliberate
further in an effort to reach unanimity did not “coerce” them
into picking one alternative over the other. Nor did the court
tell the jurors to reconsider their positions or that they must be
unanimous in the end, which are the types of statements that
have necessitated prophylactic instructions in the past. See
United States v. Robinson, 953 F.2d 433, 437 (8th Cir. 1992).
Here, the court was simply exercising its judgment that it was
sensible under the circumstances to ask the jury to deliberate
longer before giving up. Lowenfield, 484 U.S. at 238, 108
S.Ct. 546; see also United States v. Reed, 686 F.2d 651,
652 n.1 (8th Cir. 1982) (“A supplemental instruction merely
to continue deliberating after impasse ... is not properly
characterized as a traditional Allen charge.” (citing Allen v.
United States, 164 U.S. 492, 501–02, 17 S.Ct. 154, 41 L.Ed.
528 (1896))).
The jury’s response showed that it did not feel pressured to
choose either alternative. *1048 Although it continued to
deliberate for only about an hour more, the jury requested
three exhibits connected to the lack-of-remorse and futuredangerousness aggravating factors. Cf. United States v.
Warfield, 97 F.3d 1014, 1022 (8th Cir. 1996) (“Although
the jury’s return with a verdict approximately one hour after
receiving the Allen charge is somewhat expeditious, we do
not believe the postinstruction deliberation time ... raises an
inference of coercion.”). This timeline suggests that the jurors
continued to debate whether the death penalty was justified;
discussed and reexamined the evidence that they found most
compelling; and eventually agreed on a recommendation. If
they felt no choice but to impose the death penalty, as Hall
now claims, there would have been little reason to request the
exhibits. The bottom line is that nothing here raises a red flag
that there may have been coercion.
The design of the verdict form does not change our
conclusion. Hall argues that by instructing the jurors to
“proceed to” consideration of a life sentence if it could not
unanimously agree on a death sentence, the district court
should have known that the second note reported that the jury
had effectively ruled out death. 6 There are two flaws in this
argument. First, the second note said only that the jury was
not unanimous, not that death was off the table. Second, the
argument ignores the fact that the jury had a binary choice to

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Hall, 945 F.3d 1035 (2019)

A-014
and it was unconstitutional to treat his lack of remorse as
both proof of future dangerousness and as a standalone
aggravating factor. Controlling precedent squarely forecloses

make: life in prison or a death sentence. Nothing prevented
the jury from moving back and forth between these two
alternatives, and the second note simply reflected the fact that,
up to that point, there was a lack of agreement on which of the
two to choose. Under these circumstances, it was reasonable
for the court to conclude that the jury was not trying to return
a final verdict and that further deliberations would eventually
allow it to do so.

Hall’s positions on these three issues. 7 See Barefoot v.
Estelle, 463 U.S. 880, 896, 103 S.Ct. 3383, 77 L.Ed.2d 1090
(1983) (future dangerousness); Montgomery, 635 F.3d at 1099
(the jury instruction); Purkey, 428 F.3d at 762 (overlapping
aggravating factors).

VI.

*1049 VII.

Finally, we note that Hall has raised three issues for potential
en banc or Supreme Court review: it was unconstitutional to
use future dangerousness as an aggravating factor, the district
court misstated the law when it instructed the jury that Hall
“must be sentenced to death” if it made certain findings,

We accordingly affirm the judgment of the district court.
All Citations
945 F.3d 1035

Footnotes

*
1
2

3

4

5
6

7

Judge Kelly did not participate in the consideration or decision of this matter.
The Honorable Gary A. Fenner, United States District Judge for the Western District of Missouri.
Hall also argues that future dangerousness should not have been submitted as an aggravating factor because a prediction
about events yet to occur cannot be proved beyond a reasonable doubt. See 18 U.S.C. § 3593(c) (requiring the
government to prove the “existence of any aggravating factor” beyond a reasonable doubt). We recently considered and
rejected this argument, see United States v. Coonce, 932 F.3d 623, 642–43 (8th Cir. 2019), and do so here too.
Hall also claims that the decision violated his rights under the Confrontation Clause of the Sixth Amendment. As we
recently explained, however, the Confrontation Clause does not apply to sentencing proceedings, even those involving
a potential death sentence. See Coonce, 932 F.3d at 640–41; see also Williams v. New York, 337 U.S. 241, 251–52,
69 S.Ct. 1079, 93 L.Ed. 1337 (1949).
Hall vaguely asserts that allowing the jury to see that he had previously asked for the death penalty was unfairly prejudicial.
But this is a different argument than he raised before the district court or in his briefs, which took the position that the
letters were completely inadmissible because they contained statements made during plea negotiations. See Fed. R.
Evid. 410(a)(4). In any event, Hall never sought a limiting instruction or argued that the court should have redacted the
letters, so we can hardly fault it for failing to take one of these actions on its own. Cf. United States v. Melton, 870 F.3d
830, 837–38 (8th Cir. 2017) (holding that admitting a document containing potentially prejudicial statements was not an
abuse of discretion because, although the defendant requested a limiting instruction, he “did not pursue the government’s
offer to redact” them).
In light of this conclusion, we leave for another day the broader question of whether comparative-proportionality evidence
is ever admissible as a mitigating factor. See 18 U.S.C. § 3592(a) (providing a nonexclusive list of mitigating factors).
It is true that at some point the foreperson marked “NO” in the space for recommending a death sentence, before
scratching it out and marking “YES” instead. But we have no way of knowing when it happened or why. Cf. Blueford v.
Arkansas, 566 U.S. 599, 607, 132 S.Ct. 2044, 182 L.Ed.2d 937 (2012) (explaining that until deliberations are over and
the jury announces its final decision, jurors are free to “rethink” their votes). Neither did the district court, because even
if the foreperson marked “NO” before sending the second note, the court never saw the partially completed form. So this
possibility cannot have a bearing on our assessment of its decision to send the jury back for further deliberations.
Moreover, to the extent that Hall argues that he is entitled to a new trial because of cumulative error, this argument fails
on its own terms. See supra Part III.C (identifying as the only potential error that the jury may have misunderstood one
part of the verdict form); see also United States v. Darden, 70 F.3d 1507, 1549 (8th Cir. 1995) (rejecting a cumulativeerror argument because the court had only identified one error).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

United States v. Hall, 945 F.3d 1035 (2019)

End of Document

A-015

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

A-016

APPENDIX 2

A-017
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 14-2742
United States of America
Appellee
v.
Charles Michael Hall
Appellant

______________________________________________________________________________
Appeal from U.S. District Court for the Western District of Missouri - Springfield
(6:10-cr-03029-GAF-2)
______________________________________________________________________________
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
Judge Kelly did not participate in the consideration or decision of this matter.
March 17, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 14-2742

Page: 1

Date Filed: 03/17/2020 Entry ID: 4892099

A-018

APPENDIX 3

A-019

(ORDER LIST: 589 U.S.)
THURSDAY, MARCH 19, 2020
ORDER
In light of the ongoing public health concerns relating to COVID-19, the
following shall apply to cases prior to a ruling on a petition for a writ of certiorari:
IT IS ORDERED that the deadline to file any petition for a writ of certiorari
due on or after the date of this order is extended to 150 days from the date of the
lower court judgment, order denying discretionary review, or order denying a timely
petition for rehearing. See Rules 13.1 and 13.3.
IT IS FURTHER ORDERED that motions for extensions of time pursuant to
Rule 30.4 will ordinarily be granted by the Clerk as a matter of course if the grounds
for the application are difficulties relating to COVID-19 and if the length of the
extension requested is reasonable under the circumstances. Such motions should
indicate whether the opposing party has an objection.
IT IS FURTHER ORDERED that, notwithstanding Rules 15.5 and 15.6, the
Clerk will entertain motions to delay distribution of a petition for writ of certiorari
where the grounds for the motion are that the petitioner needs additional time to file
a reply due to difficulties relating to COVID-19. Such motions will ordinarily be
granted by the Clerk as a matter of course if the length of the extension requested is
reasonable under the circumstances and if the motion is actually received by the
Clerk at least two days prior to the relevant distribution date. Such motions should
indicate whether the opposing party has an objection.

A-020
IT IS FURTHER ORDERED that these modifications to the Court’s Rules
and practices do not apply to cases in which certiorari has been granted or a direct
appeal or original action has been set for argument.
These modifications will remain in effect until further order of the Court.

A-021

APPENDIX 4

A-022

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION
United States of America,
Plaintiff,
v.
Charles Michael Hall,
Defendant.

)
)
)
)
)
)
)
)
)

Criminal Action Number
10-03029-02-CR-S-GAF

REPORT AND RECOMMENDATION
Defendant Charles Michael Hall (“Hall”) has been charged in a superceding indictment
[Doc. 59] with committing a murder in a Bureau of Prisons facility. The superceding indictment
sets forth certain “special findings” made pursuant to 18 U.S.C. §§ 3591, 3592, and, in that
regard, the Government has filed a NOTICE OF INTENT TO SEEK DEATH PENALTY, [Doc. 62] for
Hall pursuant to 18 U.S.C. § 3593(a). Pending before the Court is CHARLES MICHAEL HALL’S
MOTION FOR THE COURT TO FIND ERRONEOUS THE USE OF CERTAIN EIGHTH CIRCUIT PATTERN
PENALTY PHASE INSTRUCTIONS AND INSTEAD USE PARTICULAR ALTERNATIVE INSTRUCTIONS
[DOC. 212].
Hall contends that certain Eighth Circuit Model Jury Instructions used in capital trials are
violative of the FDPA and Hall’s rights under the Fifth, Sixth and Eighth Amendments.
Specifically Hall contends that Model Jury Instructions 12.01 and 12.11 violate statutory and
constitutional provisions because the instructions are “poorly and confusingly worded and do not
accurately account the applicable law.” Hall appends to his motion two proposed instructions,
“A” and “B” but also requests, in the alternative, that the Court consider two other appended

Case 6:10-cr-03029-GAF Document 495 Filed 02/11/14 Page 1 of 2

A-023

proposed instructions, “C” and “D” which are patterned on instructions developed in the Tenth
and Fourth Circuits. In preparing this REPORT AND RECOMMENDATION, the Court notes that it is
generally persuaded to follow the precedent set forth by the Eighth Circuit and to instruct the
jury in the manner approved by the Eighth Circuit Court of Appeals -- unless and until the Eighth
Circuit rules otherwise. However, as this stage in these proceedings, the ultimate decision as to
the merits of Hall’s arguments regarding these proffered jury instructions more appropriately
resides with the District Court.
Accordingly, it is
RECOMMENDED that the Court, after making an independent review of the record and
applicable law, enter an order DENYING CHARLES MICHAEL HALL’S MOTION FOR THE
COURT TO FIND ERRONEOUS THE USE OF CERTAIN EIGHTH CIRCUIT PATTERN
PENALTY PHASE INSTRUCTIONS AND INSTEAD USE PARTICULAR ALTERNATIVE
INSTRUCTIONS, filed November 28, 2012 [Doc. 212].
Counsel are reminded that each has 14 days from the date of receipt of a copy of this
report and recommendation to file and serve specific objections to the same. A failure to file and
serve timely objections shall bar attack on appeal of the factual findings in this report which are
accepted or adopted by the district judge except upon the ground of plain error or manifest
injustice.

/s/ John T. Maughmer

,

John T. Maughmer
United States Magistrate Judge

2
Case 6:10-cr-03029-GAF Document 495 Filed 02/11/14 Page 2 of 2

A-024

APPENDIX 5

A-025

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
vs.
CHARLES MICHAEL HALL,
Defendant.

)
)
)
)
)
)
)
)
)

Case No. 10-3029-02-CR-S-GAF

ORDER
Now pending before the Court is Defendant Charles Michael Hall’s Motion for the Court
to Find Erroneous the Use of Certain Eighth Circuit Pattern Penalty Phase Instructions and
Instead Use Particular, Alternative Instructions (Doc. #212).
On February 11, 2014, United States Magistrate Judge John T. Maughmer issued his
Report and Recommendation (Doc. #495). On April 21, 2014, Defendant's Objections to the
Report and Recommendation (Doc. #692) were filed.
Upon careful and independent review of the pending motion, Defendant’s Objections to
the Magistrate's Report and Recommendation, as well as the applicable law, this Court hereby
adopts and incorporates as its own Opinion and Order the Report and Recommendation of
United States Magistrate Judge John T. Maughmer.

Case 6:10-cr-03029-GAF Document 695 Filed 04/22/14 Page 1 of 2

A-026

Accordingly, it is hereby ORDERED that Defendant Charles Michael Hall’s Motion for
the Court to Find Erroneous the Use of Certain Eighth Circuit Pattern Penalty Phase Instructions
and Instead Use Particular Alternative Instructions (Doc. #212) is OVERRULED and DENIED.
SO ORDERED.
s/ Gary A. Fenner
GARY A. FENNER, JUDGE
UNITED STATES DISTRICT COURT
DATED: April 22, 2014

2
Case 6:10-cr-03029-GAF Document 695 Filed 04/22/14 Page 2 of 2

A-027

APPENDIX 6

A-028
IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
UNITED STATES OF AMERICA
-vs-

Case No.: 10-03029-02-CR-S-GAF

CHARLES MICHAEL HALL
USM Number: 03766-036
Frederick A. Duchardt, Jr., CJA
Michael W. Walker, CJA

JUDGMENT IN A CRIMINAL CASE
The defendant was found guilty on Count 1s on June 2, 2014, of the Superseding Indictment. Accordingly, the
court has adjudicated that the defendant is guilty of the following offense(s):

Title & Section
18 U.S.C. § 1111

Nature of Offense

Date Offense
Concluded

Count
Number(s)

Murder, First Degree

1/26/2010

1s

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
IT IS ORDERED that the defendant shall notify the United States attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs and special assessments imposed by this
judgment are fully paid. If ordered to pay restitution, the defendant shall notify the court and United States attorney of any
material change in the defendant's economic circumstances.
Date of Imposition of Sentence: July 18, 2014

/s/ Gary A. Fenner
GARY A. FENNER
UNITED STATES DISTRICT JUDGE
July 18, 2014

AO 245B (Rev. 9/08-2/10) Judgment in a Criminal Case

Case 6:10-cr-03029-GAF Document 898 Filed 07/18/14 Page 1 of 4

A-029
(CHARLES MICHAEL HALL)
(10-03029-02-CR-S-GAF)

Page 2 of 4

IMPRISONMENT
It is the judgment of the Court that the defendant is sentenced to Death on Count 1s.
The time, place and manner of execution are to be determined by the Attorney General, provided that the time
shall not be sooner than 61 days nor later than 90 days after the date of this judgment. If an appeal is taken from the
conviction or sentence, execution of the judgment shall be stayed pending further order of this Court upon receipt of the
Mandate of the Court of Appeal.
The defendant is remanded to the custody of the United States Marshal.

RETURN
I have executed this judgment as follows:

Defendant delivered on ____________________ to _________________________________
at _____________________________________________, with a certified copy of this judgment.

______________________________________
UNITED STATES MARSHAL

By:__________________________________
Deputy U.S. Marshal

AO 245B (Rev. 9/08-2/10) Judgment in a Criminal Case

Case 6:10-cr-03029-GAF Document 898 Filed 07/18/14 Page 2 of 4

A-030
(CHARLES MICHAEL HALL)
(10-03029-02-CR-S-GAF)

Page 3 of 4

SUPERVISED RELEASE
Should he be released from imprisonment, the defendant shall be on supervised release for a term of 5 Years.
The defendant shall report to the probation office in the district to which the defendant is released within 72 hours
of release from custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful
use of a controlled substance. The defendant shall submit to one drug test within 15 days of release from imprisonment
and at least two periodic drug tests thereafter, as determined by the court.
The defendant shall not possess a firearm, destructive device, or any other dangerous weapon.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.
If this judgment imposes a fine or restitution, it is a condition of supervision that the defendant pay in accordance
with the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any
additional conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1. The defendant shall not leave the judicial district without the permission of the court or probation officer;
2. The defendant shall report to the probation officer in a manner and frequency directed by the court or probation
officer;

3. The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;

4. The defendant shall support his or her dependents and meet other family responsibilities;
5. The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling,
training, or other acceptable reasons;

6. The defendant shall notify the probation officer at least ten (10) days prior to any change in residence or
employment;

7. The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or
administer any controlled substance or any paraphernalia related to any controlled substances, except as prescribed
by a physician;

8. The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or
administered;

9. The defendant shall not associate with any persons engaged in criminal activity and shall not associate with any
person convicted of a felony, unless granted permission to do so by the probation officer;

10. The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit
confiscation of any contraband observed in plain view by the probation officer;
AO 245B (Rev. 9/08-2/10) Judgment in a Criminal Case

Case 6:10-cr-03029-GAF Document 898 Filed 07/18/14 Page 3 of 4

A-031
(CHARLES MICHAEL HALL)
(10-03029-02-CR-S-GAF)

Page 4 of 4

11. The defendant shall notify the probation officer within seventy-two (72) hours of being arrested or questioned by a
law enforcement officer;

12. The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement
agency without the permission of the court;

13. As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the
defendant's criminal record or personal history or characteristics, and shall permit the probation officer to make such
notifications and to confirm the defendant's compliance with such notification requirement.

SPECIAL CONDITION OF SUPERVISED RELEASE
Should he be released from imprisonment, the defendant shall also comply with the following special condition of
supervised release:

1. The defendant shall submit his person and any property, house, residence, office, vehicle, papers, computer, other
electronic communication or data storage devices or media and effects to a search, conducted by a U.S. Probation
Officer at a reasonable time and in a reasonable manner, based upon reasonable suspicion of contraband or
evidence of a violation of a condition of release; failure to submit to a search may be grounds for revocation; the
defendant shall warn any other residents that the premises may be subject to searches pursuant to this condition.

CRIMINAL MONETARY PENALTIES
The assessed criminal monetary penalties of $100 are ordered waived.

Total Assessment

Total Fine

Total Restitution

$100.00
(FEES ORDERED WAIVED)

$

$

The defendant shall pay interest on any fine or restitution of more than $2,500, unless the fine or restitution is paid
in full before the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options
on the Schedule of Payments may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
Note: Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18, United States Code, for
offenses committed on or after September 13, 1994 but before April 23, 1996.

AO 245B (Rev. 9/08-2/10) Judgment in a Criminal Case

Case 6:10-cr-03029-GAF Document 898 Filed 07/18/14 Page 4 of 4

A-032

APPENDIX 7

A-033

APPLICABLE CONSTITUTIONAL AND STATUTORY PROVISIONS
Constitutional Provisions
Amendment V to the Constitution of the United States is as follows:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless presentment or indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual service in time of War or
public danger; nor shall any person be subject for the same offence to be twice
put in jeopardy of life or limb, nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use without just
compensation.
Amendment VI to the Constitution of the United States is as follows:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by
law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his
defence.
Amendment VIII to the Constitution of the United States is as follows:
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.
Statutes
18 U.S.C. 3591(a) is as follows:
A defendant who has been found guilty of-1. an offense described in section 794 or section 2381; or
2. any other offense for which a sentence of death is provided, if the
defendant, as determined beyond a reasonable doubt at the hearing under
section 3593—
a. intentionally killed the victim;
b. intentionally inflicted serious bodily injury that resulted in the
death of the victim;
c. intentionally participated in an act, contemplating that the life of a
person would be taken or intending that lethal force would be used
in connection with a person, other than one of the participants in
the offense, and the victim died as a direct result of the act; or

A-034

d. intentionally and specifically engaged in an act of violence,
knowing that the act created a grave risk of death to a person, other
than one of the participants in the offense, such that participation in
the act constituted a reckless disregard for human life and the
victim died as a direct result of the act
shall be sentenced to death if, after consideration of the factors set forth in section
3592 in the course of a hearing held pursuant to section 3593, it is determined that
imposition of a sentence of death is justified, except that no person may be
sentenced to death who was less than 18 years of age at the time of the offense.
18 U.S.C.A. § 3593 (c), (d) and (e) are as follows:
(c) Proof of mitigating and aggravating factors.--Notwithstanding rule 32 of
the Federal Rules of Criminal Procedure, when a defendant is found guilty or
pleads guilty to an offense under section 3591, no presentence report shall be
prepared. At the sentencing hearing, information may be presented as to any
matter relevant to the sentence, including any mitigating or aggravating factor
permitted or required to be considered under section 3592. Information presented
may include the trial transcript and exhibits if the hearing is held before a jury or
judge not present during the trial, or at the trial judge's discretion. The defendant
may present any information relevant to a mitigating factor. The government may
present any information relevant to an aggravating factor for which notice has
been provided under subsection (a). Information is admissible regardless of its
admissibility under the rules governing admission of evidence at criminal trials
except that information may be excluded if its probative value is outweighed by
the danger of creating unfair prejudice, confusing the issues, or misleading the
jury. For the purposes of the preceding sentence, the fact that a victim, as defined
in section 3510, attended or observed the trial shall not be construed to pose a
danger of creating unfair prejudice, confusing the issues, or misleading the jury.
The government and the defendant shall be permitted to rebut any information
received at the hearing, and shall be given fair opportunity to present argument as
to the adequacy of the information to establish the existence of any aggravating or
mitigating factor, and as to the appropriateness in the case of imposing a sentence
of death. The government shall open the argument. The defendant shall be
permitted to reply. The government shall then be permitted to reply in rebuttal.
The burden of establishing the existence of any aggravating factor is on the
government, and is not satisfied unless the existence of such a factor is established
beyond a reasonable doubt. The burden of establishing the existence of any
mitigating factor is on the defendant, and is not satisfied unless the existence of
such a factor is established by a preponderance of the information.
(d) Return of special findings.--The jury, or if there is no jury, the court, shall
consider all the information received during the hearing. It shall return special
findings identifying any aggravating factor or factors set forth in section 3592
found to exist and any other aggravating factor for which notice has been
provided under subsection (a) found to exist. A finding with respect to a

A-035

mitigating factor may be made by 1 or more members of the jury, and any
member of the jury who finds the existence of a mitigating factor may consider
such factor established for purposes of this section regardless of the number of
jurors who concur that the factor has been established. A finding with respect to
any aggravating factor must be unanimous. If no aggravating factor set forth in
section 3592 is found to exist, the court shall impose a sentence other than death
authorized by law.
(e) Return of a finding concerning a sentence of death.--If, in the case of-1. an offense described in section 3591(a)(1), an aggravating factor required
to be considered under section 3592(b) is found to exist;
2. an offense described in section 3591(a)(2), an aggravating factor required
to be considered under section 3592(c) is found to exist; or
3. an offense described in section 3591(b), an aggravating factor required to
be considered under section 3592(d) is found to exist,
the jury, or if there is no jury, the court, shall consider whether all the aggravating
factor or factors found to exist sufficiently outweigh all the mitigating factor or
factors found to exist to justify a sentence of death, or, in the absence of a
mitigating factor, whether the aggravating factor or factors alone are sufficient to
justify a sentence of death. Based upon this consideration, the jury by unanimous
vote, or if there is no jury, the court, shall recommend whether the defendant
should be sentenced to death, to life imprisonment without possibility of release
or some other lesser sentence.

A-036

APPENDIX 8

A-037

FDPA CASES TRIED TO VERDICT
TOTAL-197
A. LIFE SENTENCED DEFENDANTS
Total-126
1. Jury instructed they were never required to sentence to death
Total-84-8th Circuit Cases-1
a. Cases tried before 2010-Total-67-8th Circuit cases-1
Nguyen, Phouc H. D. KS CR No. 94-10129-01, Doc. 206, p. 8, 20
Nichols, Terry Lynn D. CO No. 96-CR-68 (See McVeigh)
Gonzales-Lauzan, Jr., Luis S.D. FL No. 02-CR-20572, Doc. 233, p. 24
Hargrove, Demetrius R. D. KS # 2:03-CR-20192-Hall case Doc. 212, Appendix I
Bass, John E.D. MI CR No. 97-80235, Tr. 1890, 2085
Al-'Owhali, Mohamed Rashed Daoud S.D. NY No. 98-CR-1023, Tr. 7256
Mohamed, Khalfan Khamis S.D. NY, 98-CR-1023, See Al-‘Owhali
Gilbert, Kristin D. MA CR No. 98-30044-MAP, Tr. 10501, 10507, 10509
Edelin, Tommy D. DC CR No. 98-264, Doc. 691, p. 21
Shakir, Jamal M.D. TN CR No. 3:98-00038, Doc. 3989, p. 43, 44
Garrett, Lemond S.D. GA CR No. 4-99-133, Doc. 570, p. 24
Sanders, Marcus S.D. AL CR No. 98-0056-CB, Tr. 1173
Denis, Jose S.D. FL No. 99-00714, Hall case Doc. 212, Appendix JJ
Gray, Kevin D. DC No. 1:00-CR-00157, Doc. 1308, p. 40-41
1

A-038

Moore, Rodney D. DC No. 1:00-CR-00157, Doc. 1308, p. 40-41
Johnson, Coleman W.D. VA 3:00-CR-00026, Hall Case Doc. 212, Appendix GG
Quinones, Alan S.D. NY No. 00-CR-0761, Tr. 3993
Rodriguez, Diego S.D. NY No. 00-CR-0761, Tr. 3993
Ealy, Samuel Stephen W.D. VA No. 00-CR-104, Chamber’s copy of instructions,
p. 15, 47
Mosher, Ellis E.D. TX No. 1:06-CR-00101-Hall Case Doc. 212, Appendix CC
Britt, L.J. N.D. TX No. 00-CR-260, Hall Case Doc. 212, Appendix II
Lentz, Jay E.D. VA No. 01-CR-150, Hall Case Doc. 212, Appendix Q
Ostrander, Michael Paul W.D. MI No. 01-CR-00218, Doc. 374, p. 353
Ostrander, Robert Norman W.D. MI No. 01-CR-00218, Doc. 460, p. 498-499
Davis, Johnny E.D. LA No. 2:01-CR-282, Doc. 510, p. 17
Haynes, Aaron W.D. TN No. 01-CR-20247, 265 F.Supp.2d 914, 915-923
Aguilar, Martin E.D. NY No. 01-CR-1367, Chambers Copy, p. 2
Caraballo, Gilberto E.D. NY No. 01-CR-1367, SEE AGUILAR
Krylov, Petro C.D. CA No. 02-220, Hall Case Doc. 212, APPENDIX V
Mills, Barry Byron C.D. CA No. 02-00938-GHK, Doc. 3857, p. 47
Bingham, Tyler Davis C.D. CA No. 02-00938-GHK, Doc. 3857, p. 47
Bridgewater, Wayne C.D. CA No. 02-00938-GHK, Hall Case Doc. 212, Appendix
W
Houston, Henry Michael C.D. CA No. 02-00938-GHK, Hall Case, Doc. 212,
Appendix W
2

A-039

Breeden, Shawn W.D. VA No. 03-CR-13, sentencing instructions transcript, p. 6,
11-12
Carpenter, Michael Anthony W.D. VA No. 03-CR-13, SEE BREEDEN
Simmons, Brent W.D. VA No. 5:04-CR-30014-SGW, Hall Case, Appendix HH
Williams, Michael S.D. NY No. 00-CR-1008, Tr. 3969, 3710
Williams, Elijah Bobby S.D. NY No. 00-CR-1008, SEE MICHAEL WILLIAMS
James, Richard E.D. NY No. 02-778, Tr. 951
Mallay, Ronald E.D. NY No. 02-778, SEE JAMES
McGriff, Kenneth E.D. NY No. 04-966, Hall Case Doc. 212, Appendix U
Pepin-Taveras, Humberto E.D. NY CR No. 04-0156, Doc. 593, p. 17
Wilk, Kenneth S.D. FL No. 04-CR-60216, Hall Case Doc. 212, Appendix KK
Barnes, Khalid S.D. NY No. 7:04-CR-00186, Hall Case Doc. 212, Appendix EE
Natson, Michael Antonio M.D. GA No. 4:05-CR-00021, Doc. 199, p. 20, 22, 169
Henderson, Thomas S.D. OH No. 2:06-CR-00039, Doc. 160-18, p.157, 167, 169
Mayhew, John Richard S.D. OH No. 03-165, Hall Case Doc. 212, Appendix N
Baskerville, William D.N.J. No. 03-836, Hall Case, Doc. 212, Appendix Z-1
Moonda, Donna N.D.OH No. 1:06-CR-00395, Hall Case Doc. 212, Appendix Y
Julian, Jermaine Michael M.D. FL No. 8:07-CR-9-JDW, Doc. 245, p. 3, 15
Perez, Wilfredo D. CT No. 02-CR-7, Doc. 1078, p. 32
Gonzalez, Fausto D. CT No. 02-CR-7, Doc. 1312, p. 27-28
3

A-040

Moses, Keon D. MD No. 02-CR-410, Doc. 486, p. 64
Taylor, Michael Lafayette D. MD No. 02-CR-410, SEE MOSES
Dinkins, James D. MD No. 1:06-CR-00309-JFM, Chambers Copy, p. 40
Gilbert, Melvin D. MD No. 1:06-CR-00309-JFM, SEE DINKINS
Byers, Patrick Albert, Jr. D. MD No. 08-056, Doc. 334, p. 35
Williams, Jamain E.D. PA No. 01-CR-512, Hall Case Doc. 212, Appendix R
Cooper, Andre E.D. PA No. 01-CR-512, Hall Case Doc. 212, Appendix R
Villegas, Hernardo Medina D. PR No. 3:02-CR-117, Hall Case Doc. 212,
Appendix K
Roman, Lorenzo Catalan D. PR No. 3:02-CR-117, Hall Case Doc. 212, Appendix J
Ayala-Lopez, Carlos L. D. PR No. 03-CR-55, Hall Case Doc. 212, Appendix L
Tatum, Kenneth A. E.D. TX No. 2:99-CR-164, Doc. 542, p. 22
Smith, Daymon E.D. TX No. 2:99-CR-164, Doc. 389, p. 34
Wills, Christopher Andaryl E.D. VA No. 99-00396, sentencing transcript, p. 35, 37
Matthews, Lavin N.D.N.Y Case # 3:00-CR-269, sentencing charge transcript, p. 30
Tucker, Tebiah N.D.N.Y. Case # 3:00-CR-269 (SEE MATTHEWS)
Street, John P. WDMO 4:04-CR-00298GAF, Doc. 586, p. 3, 19
b. Cases tried 2010 and after-Total-16
Phillips, Maurice E.D. PA No. 2:07-CR-00549-JCJ, Doc. 696, p. 133
Argueta, Antonio D. MD No. 8:05-CR-00393-DKC, Doc. 1567, p. 18
Duong, Anh The N.D. CA No. 5:01-CR-20154 JF, Doc. 1490, p. 15
4

A-041

Lecco, George S.D. WV CR No. 2:05-00107, Tr. 1385
O’Reilly, Timothy E.D. MI No. 05-80025, Doc. 746, p. 84
Richardson, Brian N.D. GA No. 1:08CR139, sentencing transcript, p. 39
Burgos-Montes, Edison D. PR No. 06-009 JAG, Doc. 862, p. 33, 38
Northington, Steven E.D. PA No. 2:07-CR-00550-RBS, 1501, p. 88
Candelario-Santana, Alexis D. PR No. 3:09-CR-00427-JAF, Doc. 1046, p. 20
Casey, Lashaun D. PR No. 3:05-CR-0277-JAG, Doc. 1074, p. 30)
Jimenez-Bencevi, Xavier D. PR No. 3:12-CR-00221-JAF, Doc. 801, p. 88
Salad, Ahmed Muse E.D. VA No. 2:11CR34RBS, Doc. 934, p. 8)
Beyle, Abukar Osman E.D. VA No. 2:11CR34, SEE SALAD
Abrar, Shani Nurani Shiekh E.D. VA No. 2:11CR34, SEE SALAD
Briseno, Juan N.D. IN No. 2:11-CR-077, Doc. 2784-1, p. 3
Con-Ui, Jesse M.D.Pa., 3:13-CR-00123, sentencing transcript, p. 165
2. Clerks still searching for records
Reported by attorneys that “never” instruction used
Total-6
Haynes, Willis D. MD CR No. 98-0520
Finley, James W.D.N.C. Case # 98-CR-243
Minerd, Joseph W.D. PA CR No. 99-215
O’Driscoll, Michael M.D.PA Case # 4:01-CR-277
Dixon, Emile E.D. NY No. 01-CR-389
5

A-042

Hans, Eric Preston D. SC No. 6:05-CR-01227-HMH
3. “May” without use of “never”
Total-5
Dhinsa, Gurmeet Singh E.D. NY CR No. 97-672, Chambers copy, p. 16
Galan, Thomas A. N.D. OH No. 3:06-CR-00730-JGC, Doc. 160, p. 23
Bobbitt, LaFawn E.D. VA No. 3:97-CR-169, Doc. 392, p. 124
Jones, Rashi E.D. VA No. 97-CR-129, Doc. 392, p. 124
Jones, Anthony A. MD CR No. 1:96cr458WMN, Doc. 879, p. 34
4. “Must” and “never”
Total-2
Grande, Oscar E.D. VA No. 1:04-CR-283, Chambers Copy, Instruction # 3, p. 7,
Instruction #12, p. 37
Cisneros, Ismael E.D. VA No. 04-CR-283, Chambers Copy, Instruction # 3, p. 7,
Instruction #12, p. 37
5. “Must” or “Shall” or “Are to”
Total-23-8th Circuit Cases-13
1. Cases tried before 2010-Total-21-8th Circuit Cases-12
Ingle, Trinity Edward W.D. AR No. 6:96-CR-60023 (See United States v.
Paul)
Kehoe, Chevy E.D. AR No. CR-97-243, Doc. 812, p. 21
Tello, Plutarco W.D. MO No. 98- 00311-CR-W-2, Doc. 773
Hinestroza, Edwin R. W.D. MO No. 98-00311-CR-W- Doc. 1230, p. 22
Lightfoot, Xavier Lamar W.D. MO No. 00-CR-395, Doc. 786, p. 21
6

A-043

Haskell, Carl W.D. MO No. 00-CR-395, Doc. 473, p. 28-29
Cannon, Amesheo D. E.D. MO No. 1:01CR00073RWS, Doc. 575, Instruction
60
Hyles, Tyrese E.D. MO No. 01-CR-73, Doc. 575, Instruction 60
Smith, Thomas W.D. MO No. 3:02-CR-05025, Doc. 685, p. 39
Clay, Vertis E.D. AR No. 4:04-CR-00035, Chambers Copy, p. 14
Eye, Gary W.D. MO No. 4:05-CR-00344-ODS, Doc. 491, p. 26
Sandstrom, Steven W.D. MO No. 4:05-CR-00344-ODS, Doc. 498, p. 27
Martinez, Mariano C.D. CA CR No. 99-83, Doc. 2130, p. 3
Lyon, Billy Joe W.D. KY No. 4:99-CR-11, Doc. 473, p. 20
Taylor, Styles N.D. IN CR No. 2:01-CR-073, Doc. 914, p. 31
Frye, James Ernest S.D. MS No. 01-CR-8, Doc. 354-9, p. 82-83, Doc. 354-12, p.
31
Cooper, Billy D. S.D. MS No. 01-CR-8, Doc. 212-7, p. 27-28
Williams, Tyrone S.D. TX No. 03-CR-221, Chambers copy, p. 9
McTier, James E.D. NY CR No. 05-40, Doc. 380, p. 40
Solomon, Jelani W.D. PA No. 2:05-CR-00385-TFM, Doc. 861, p. 16, Doc. 865, p.
96
Cyrus, Dennis, Jr. N.D. CA No. 05-00324-MMC, Doc. 1526, p. 19
b. Cases tried 2010 and after-Total 2-8th Circuit Cases-1
Jones, Ulysses, W.D.MO 6:10-CR-03090-DGK-USMCFP Doc. 434 , p. 16
7

A-044

Basciano, Vincent E.D. NY No. 05-CR-0060, Doc. 1260, p. 19
6. Tenth Circuit Model Instructions
Total-6
1. Cases tried before 2010-Total- 3
Sablan, William D. CO No. 00-CR-531, Doc. 2945, p. 13-14
Sablan, Rudy D. CO No. 00-CR-531, Doc. 2959-6, p. 6
Green, Steven W.D. KY No. 5:06-CR-00019-TBR, Doc. 256, p. 21, 23
b. Cases tried 2010 and after-Total-3
Lujan, Larry D. NM No. 05-924, Doc. 1377, p. 4, 22
Williams, Naeem D. HI No. 1:06-CR-00079-DAE, Doc. 2784-1, p. 30
McCluskey, John Charles D. NM No. 1:10-CR-02734, Doc. 1515, p. 105, 140

B. DEATH SENTENCED DEFENDANTS
TOTAL-71
1. FDPA Cases-jury instructed they were never required to sentence to death
Total-36-8th Circuit Cases-2
1. Cases tried before 2010-Total 28-8th Circuit Cases-2
Honken, Dustin N.D. IA No.3:01-CR-03047-MWB, Doc. 524, p. 11-12
Johnson, Angela N.D.IA. No.3:01-CR-03047-MWB, Doc. 524, p. 11-12
Bountaem Chanthadara D.KS. 6:94-CR-10128-JTM, Doc. 457, p. 8, 24
Davis, Len E.D. LA CR No. 94-381, Doc. 510, p. 16-17
Hardy E.D.LA. 94-381, Doc. 529, p. 21-22

8

A-045

Hall, Orlando C. N.D. TX No. 4:94-CR-121, Doc. 458, p. 12
Webster, Bruce N.D. TX No. 4:94-CR-121, Doc. 744, p. 18)
Battle, Anthony N.D. GA No. 1:95-CR-528, Doc. 259, p. 11, Doc. 263, p. 19
Jones, Louis N.D.TX. 6:95-CR-0015, Doc. 141, p. 14
McVeigh, Timothy D.CO. 1:96-CR-00068, Chambers Copy, p. 12
Hammer, David M.D.PA. 4:96-CR-239, Doc. 551, p. 26
Higgs, Dustin D. MD 98- 0520, Doc. 395, p. 44
Gabrion, Marvin W.D. MI No. 1:99-CR-76, Hall Case Doc. 212, APPENDIX DD,
p. 28
Jackson, Richard W.D. NC No. 00-CR-74, Tr. 1286, 1512, 1515
Robinson, Julias Omar N.D. TX No. 00-CR-260, Doc. 1659, p. 11, 13, 30
Fell, Donald D.VT. 2:01-CR00012, Doc. 197, p. 23, 25
Mikos, Ronald N.D. IL No. 02-CR-137, Doc. 380, p. 23-24
Fulks, Chadrick D. SC No. 02-CR-992, Hall Case Doc. 212, Appendix G, p. 3,
250, 281-282
LeCroy, William Emmett N.D. GA No. 02-CR-38, Tr. 2733, 2747
Taylor, Rejon E.D. TN No. 1:04-CR-00160, Hall Case, Appendix BB, p. 21
Barrett, Kenneth Eugene E.D. OK CR No. 04-100, Hall Case, Appendix P,
Instruction 20
Brown, Meier Jason S.D. GA CR No. 4:03-01, 441 F.3d 1330, 1355-56
Bourgeois, Alfred S.D. TX CR No. 02-216, Doc. 294, p. 14
Hager, Thomas Morocco E.D. VA No. 1:05-CR-00264-TSE, Sentencing
9

A-046

Transcript, p. 165, 174
Ebron, Joseph E.D. TX 09-40544, 10-40108, Doc. 184, p. 11-12
Duncan, Joseph D. ID CR No. 07-23, Hall Case, Doc. 212, Appendix FF, p. 19
Runyon, David E.D. VA CR No. 4:08-CR-16, Tr. 2673, 2684
b. Cases tried 2010 and after-Total 8
Snarr, Mark E.D. TX 1:09-CR-00015, Doc. 411, p. 26, 47-48
Garcia, Edgar B. E.D. TX 1:09-CR-00015 (SEE SNARR)
Sanders, Thomas Steven W.D. LA No. 1:10-CR-00351, Doc. 292, p. 44-45
Torrez, Jorge Avila E.D. VA No. 1:11-CR-115, DOC. 450, P. 36, 41
Aquart, Azibo D. CT 3:06CR160, Doc. 930, p. 35-36
Savage, Kaboni E.D. PA No. 2:07-CR-00550-RBS, Sentencing Tr. 7, 49
Fackrell, Ricky EDTX # 1:16-CR-00026MAC, Doc. 667, p. 14-15
Cramer, Christopher EDTX # 1:16-CR-00026MAC, Doc. 665, p. 14-15
2. “May” without use of “never”
Total-2
Mikhel, Iouri C.D. CA No. 02-220, Doc. 1540, p. 41
Kadamovas, Jurijus C.D. CA No. 02-220, (SEE MIKHEL)
3. “Must” and “never”
Total-9-8th Circuit Cases-1
1. Cases tried before 2010-Total-6-Eighth Circuit Cases- 1
Paul, Jeffrey Williams W.D. AR No. 6:96-CR-60022, Doc. 430-5, p. 1129, 217
F.3d 989, 999
10

A-047

Barnette, Aquila Marcivicci W.D. NC No. 3:97-CR-23, Tr. 1197
Vialva, Christopher Andre W.D. TX No. 99-CR-070, jury charge transcript, p. 2324
Bernard, Brandon W.D. TX No. 99-CR-070, jury charge transcript, p. 23-24
Fields, Sherman Lamont W.D. TX No. 01-CR-164, Hall Case, Doc. 212,
APPENDIX H, p. 13
Johnson, John EDLA 2:04-CR-00017, Doc. 1239, p. 3, 13, 14
b. Cases tried 2010 and after-Total-3
Wilson, Ronell, EDNY 04-CR-1016, Doc. 1416-1, p. 20, 22
Tsarnaev, Dzhokhar D. MA No. 1:13-CR-10200-GAO, (Doc. 1418, p. 56-58
Sampson, Gary D.MA No. 1:01-CR-10384-LTS, Doc. 2820, p. 47, 50-51
4. “Must” or “Shall” or “Are to”
Total-16-8th Circuit Cases-12
1. Cases tried before 2010-Total-14-8th Circuit cases-10
Allen, Billie Jerome E.D. MO No. 4:97-CR-0141 ERW, 247 F.3d 741, 780
Holder, Norris G. E.D. MO CR No. 4:97-0141-ERW, 247 F.3d 741, 780
Lee, Daniel Louis E.D. AR No. 97-243, Doc. 815, p. 21
Ortiz, Arboleda W.D. MO No. 98- 00311, 315 F.3d 873, 900-901
Sinisterra, German WDMO No. 98-311, 315 F.3d 873, 900-901
Nelson, Keith D. W.D. MO No. 99-CR-303-1, 347 F.3d 701, 712
Purkey, Wesley Ira W.D. MO No. 01-CR-308, 428 F.3d 738, 762-763
11

A-048

Bolden, Robert, Sr. E.D. MO No. 4:02-CR 0557, Doc. 435, p. 13
Montgomery, Lisa W.D. MO No. 5:05-CR-06002-GAF, 635 F.3d 1074, 10981099
Rodriguez, Alfonso, Jr. D. ND No. 04-CR-55, Doc. 616, Instruction 4
Agofsky, Shannon Wayne E.D. TX 1:03-CR-173, Doc. 163, p. 14
Corley, Odell N.D. IN No. 02-CR-116-2017, Doc. 721, p. 32
Lawrence, Daryl S.D. OH No. 2:05-CR-00011-GLF, Chambers Copy, p. 37
Jackson, David Lee E.D.TX 1:06-CR-00051-MAC-ESH, Doc. 326, p. 20
b. Cases tried 2010 and after-Total-2-8th Circuit Cases-2
Coonce, Wesley Paul Jr. W.D. MO 10-03029-CR-S-GAF, Doc. 807
Hall, Charles Michael W.D. MO 10-03029-CR-S-GAF, Doc. 807
5. Tenth Circuit Model Instructions
Total-4
Fields, Edward E.D. OK No. 6:03-CR-00073-2017, Doc. 227, p. 28-29
Caro, Carlos David W.D. VA No. 06-CR-00001, Chambers Copy, p. 13-14
Sanchez, Ricardo S.D. FL 06-80171, Doc. 848, p. 79-80
Troya, Danny S.D. FL 06-80171 (SEE SANCHEZ)
6. Fourth Circuit Approach
Total-3
1. Cases tried before 2010-Total-1
Lighty, Kenneth Jamal D. MD No. 8:03-CR-00457-PJM, Sentencing Transcript, p.
36-38
12

A-049

b. Cases tried 2010 and after-Total-2
Umana, Alejandro Enrique W.D. NC No. 3:08-CR-134-RJC, Doc. 1261, p. 117
Roof, Dylan, D.S.C. No. 15-472, Doc. 948, p. 88-89
7. Clerks still searching for instructions, unsure about language used
Total-1
Mitchell, Lezmond D. AZ No. 01-CR-1062

13

A-050

APPENDIX 9

A-051

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)

Plaintiff,
vs.
WESLEY PAUL COONCE, JR.
and CHARLES MICHAEL HALL,
Defendants.

Case No. 10-03029-CR-S-GAF

PENALTY PHASE JURY INSTRUCTIONS

1
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 1 of 83

A-052

INSTRUCTION NO. 1
Members of the jury, you have unanimously found Defendant Wesley Paul Coonce, Jr.
guilty of the offense of murder in the first degree within the special maritime and territorial
jurisdiction of the United States, as charged in Count I of the Indictment, and of the offense of
murder by a federal prisoner, as charged in Count II of the Indictment.

You have also

unanimously found Defendant Charles Michael Hall guilty of the offense of murder in the first
degree within the special maritime and territorial jurisdiction of the United States, as charged in
Count I of the Indictment. You must now consider whether to impose a sentence of death or a
sentence of life imprisonment without the possibility of release for commission of the crime or
crimes for which each Defendant was found guilty.
This decision is left exclusively to you, the jury. If you determine that the Defendants
should be sentenced to death, or to life imprisonment without the possibility of release, the court
is required to impose that sentence for each Defendant.
Before you may consider whether to impose a sentence of death or life imprisonment
without the possibility of release as to Defendant Coonce, you must first determine whether each
of the following three (3) propositions has been proved unanimously and beyond a reasonable
doubt for each count as to Defendant Coonce:
First, you must determine whether or not the Government has proved unanimously and
beyond a reasonable doubt that Defendant Coonce was at least eighteen (18) years of age at the
time of the offense;
Second, you must determine whether or not the Government has proved unanimously and
beyond a reasonable doubt that Defendant Coonce acted with one (1) of the following four (4)
mental states; that Defendant Coonce:

2
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 2 of 83

A-053

A.

intentionally killed Victor Castro-Rodriguez;

B.

intentionally inflicted serious bodily injury that resulted in the death of Victor
Castro-Rodriguez;

C.

intentionally participated in an act, contemplating that the life of a person would
be taken or intending that lethal force would be used in connection with a person,
other than one (1) of the participants in the offense, and Victor Castro-Rodriguez
died as a direct result of the act; or

D.

intentionally and specifically engaged in an act of violence, knowing that the act
created a grave risk of death to a person, other than one (1) of the participants in
the offense, such that participation in the act constituted a reckless disregard for
human life and Victor Castro-Rodriguez died as a direct result of the act; and

Third, you must determine whether the Government has proved unanimously and beyond
a reasonable doubt the existence of at least one (1) statutory aggravating factor as to Defendant
Coonce. I will define the term “aggravating factors” for you shortly.
Before you may consider whether to impose a sentence of death or life imprisonment
without the possibility of release as to Defendant Hall, you must first determine whether each of
the following three (3) propositions has been proved unanimously and beyond a reasonable
doubt as to Defendant Hall:
First, you must determine whether or not the Government has proved unanimously and
beyond a reasonable doubt that Defendant Hall was at least eighteen (18) years of age at the time
of the offense;

3
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 3 of 83

A-054

Second, you must determine whether or not the Government has proved unanimously
and beyond a reasonable doubt that Defendant Hall acted with one (1) of the following four (4)
mental states; that Defendant Hall:
A.

intentionally killed Victor Castro-Rodriguez;

B.

intentionally inflicted serious bodily injury that resulted in the death of Victor
Castro-Rodriguez;

C.

intentionally participated in an act, contemplating that the life of a person would
be taken or intending that lethal force would be used in connection with a person,
other than one (1) of the participants in the offense, and Victor Castro-Rodriguez
died as a direct result of the act; or

D.

intentionally and specifically engaged in an act of violence, knowing that the act
created a grave risk of death to a person, other than one (1) of the participants in
the offense, such that participation in the act constituted a reckless disregard for
human life and Victor Castro-Rodriguez died as a direct result of the act; and

Third, you must determine whether or not the Government has proved unanimously and
beyond a reasonable doubt the existence of at least one (1) statutory aggravating factor as to
Defendant Hall. I will define the term “aggravating factors” for you shortly.
If, after fair and impartial consideration of all the evidence in this case for each
Defendant for the crime for which he is charged, any one (1) of you does not determine that the
Government has proved those three (3) things beyond a reasonable doubt, your deliberations will
be over. If you do unanimously determine that the Government has proved those three (3) things
beyond a reasonable doubt for any Defendant for each count for which he is charged, you will
then proceed to determine whether you unanimously find that the Government has proved the

4
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 4 of 83

A-055

existence of any non-statutory aggravating factors beyond a reasonable doubt for that Defendant.
Next, you will determine whether any of you find that any Defendant has proved any mitigating
factors by a preponderance of the evidence. You must then engage in a weighing process. If you
unanimously find that the aggravating factor or factors, which you all found to exist, sufficiently
outweigh any mitigating factor or factors, which any one (1) of you found to exist, to justify
imposition of a sentence of death, or if in the absence of a mitigating factor or factors, you find
that the aggravating factor or factors alone are sufficient to justify imposition of a sentence of
death, and that death is therefore the appropriate sentence in this case for that Defendant for each
count for which he is charged, the law provides that that Defendant must be sentenced to death.
Again, whether or not the circumstances in this case justify a sentence of death is a
decision that is entirely yours. You must not take anything I may say or do during this phase of
the trial as indicating what I think of the evidence or what I think your verdict should be.
Two (2) terms that you have already heard and will hear throughout this phase of the case
are “aggravating factors” and “mitigating factors.” These factors concern the circumstances of
the crime or the personal traits, character, or background of a Defendant.
The word “aggravate” means “to make worse or more offensive” or “to intensify.” The
word “mitigate” means “to make less severe” or “to moderate.” An aggravating factor, then, is a
fact or circumstance that would tend to support imposition of the death penalty. A mitigating
factor is any aspect of a Defendant’s character or background, any circumstance of the offense,
or any other relevant fact or circumstance that might indicate that a Defendant should not be
sentenced to death.
In the death penalty statute, a number of aggravating factors are listed. These are called
“statutory aggravating factors.” As I instructed you earlier, before you may consider imposition

5
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 5 of 83

A-056

of either life imprisonment without the possibility of release or the death penalty, you must first
determine whether the Government proved at least one (1) of these aggravating factors
specifically listed in the death penalty statute, and your finding must be unanimous and beyond a
reasonable doubt for each Defendant for each count for which he is charged. In addition to
statutory aggravating factors, there may also be aggravating factors not specifically set out in the
death penalty statute. These are called “non-statutory aggravating factors.” Again, your finding
that any non-statutory aggravating factor exists must be unanimous and beyond a reasonable
doubt for each Defendant for each count for which he is charged. You may only consider
aggravating factors, whether statutory or non-statutory, which have been specifically alleged by
the Government and listed in these instructions. I will instruct you at the close of the evidence in
this penalty phase on the statutory and non-statutory aggravating factors that you must
unanimously determine the Government has proved beyond a reasonable doubt for each
Defendant and for each count.
Each Defendant has the burden of proving any mitigating factors. However, there is a
different standard of proof as to mitigating factors. You need not be convinced beyond a
reasonable doubt about the existence of a mitigating factor; you need only be convinced that it is
more likely true than not true in order to find that it exists. A unanimous finding is not required.
Instead, any one (1) of you may find the existence of a mitigating factor, regardless of the
number of other jurors who may agree. I will instruct you at the close of the evidence in this
penalty phase on the mitigating factors that any one (1) of you may find a Defendant has proved
is more likely true than not true for each count for which he is charged.
As to each Defendant for each count for which he is charged, if you have unanimously
found that at least one (1) statutory aggravating factor exists, you then must weigh the

6
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 6 of 83

A-057

aggravating factors you have all found to exist against any mitigating factors you have
individually found to exist to determine the appropriate sentence. Any juror may also weigh a
mitigating factor found by another juror, even if he or she did not also find that factor to be
mitigating. I will give you detailed instructions regarding the weighing of aggravating and
mitigating factors before you begin your deliberations. However, I instruct you now that you
must not simply count the number of aggravating and mitigating factors and reach a decision
based on which number is greater; on the contrary, you must consider the weight and value of
each factor.

7
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 7 of 83

A-058

INSTRUCTION NO. 2
As I have just instructed you, the Government must meet its burden of proof beyond a
reasonable doubt. A “reasonable doubt” is a doubt based upon reason and common sense after
careful and impartial consideration of all the evidence received in this trial. It is the kind of
doubt that would make a reasonable person hesitate to act. Proof beyond a reasonable doubt,
therefore, must be proof of such a convincing character that a reasonable person would not
hesitate to rely and act upon it. However, proof beyond a reasonable doubt does not mean proof
beyond all possible doubt.
No Defendant has the burden of disproving the existence of anything the Government
must prove beyond a reasonable doubt. The burden is wholly upon the Government; the law
does not require any Defendant to produce any evidence at all.
However, it is each Defendant’s burden to establish any mitigating factors, by a
preponderance of the evidence. To prove something by the preponderance of the evidence is to
prove that it is more likely true than not true. It is determined by considering all of the evidence
and deciding which of the evidence is more believable. If, on any issue in the case, the evidence
is equally balanced, you cannot find that issue has been proved.
The preponderance of the evidence is not necessarily determined by the greater number
of witnesses or exhibits presented by the Government or the Defendants.
To prove something by the preponderance of the evidence is a lesser standard of proof
than proof beyond a reasonable doubt.

8
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 8 of 83

A-059

INSTRUCTION NO. 3
In making all the determinations you are required to make in this phase of the trial, you
may consider any evidence that was presented during the guilt phase of the trial as well as
evidence that is presented at this sentencing phase of the trial.
In deciding what the facts are, you may have to decide what testimony you believe and
what testimony you do not believe. You may believe all of what a witness said, or only part of
it, or none of it. In deciding what testimony of any witness to believe, consider the witness’s
intelligence, the opportunity the witness had to have seen or heard the things testified about, the
witness’s memory, any motives that witness may have for testifying a certain way, the manner of
the witness while testifying, whether that witness said something different at an earlier time, the
general reasonableness of the testimony, and the extent to which the testimony is consistent with
other evidence that you believe.

9
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 9 of 83

A-060

INSTRUCTION NO. 4
Regardless of any opinion you may have as to what the law may be — or should be — it
would be a violation of your oaths as jurors to base your verdict upon any view of the law other
than that given to you in these instructions.
Some of the legal principles that you must apply to this sentencing decision are the same
as those you followed in reaching your verdict as to guilt or innocence. Others are different.
The instructions I am giving you now are a complete set of instructions on the law applicable to
the sentencing decision. I have prepared them to ensure that you are clear in your duties at this
extremely serious stage of the case. I have also prepared special verdict forms that you must
complete. The forms detail special findings you must make in this case and will help you
perform your duties properly.

10
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 10 of 83

A-061

INSTRUCTION NO. 5
The Government and Defendant Wesley Paul Coonce, Jr. have stipulated — that is, they
have agreed — that Defendant Coonce was eighteen (18) years of age or older at the time of the
offense. You must therefore treat that fact as having been proved.

11
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 11 of 83

A-062

INSTRUCTION NO. 6
Before you may consider whether to impose the death penalty as to Defendant Coonce
for each count for which he is charged, you must determine whether the Government has proved
unanimously and beyond a reasonable doubt that Defendant Coonce intentionally committed acts
resulting in the death of Victor Castro-Rodriguez in one (1) of the manners described below. If
you unanimously make that finding as to the murder of Victor Castro-Rodriguez as to Defendant
Coonce for each count for which he is charged, you should so indicate on the appropriate page in
Section II of the Special Verdict Forms for Defendant Coonce and continue your deliberations.
If you do not unanimously make that finding as to the murder of Victor Castro-Rodriguez for any
count for which Defendant Coonce is charged, you should so indicate on the appropriate page in
Section II of the Special Verdict Form for that count and follow the instructions at the end of
Section II on the appropriate page, and no further deliberations will be necessary.
Under Counts I and II as to Defendant Coonce, the Government alleges that:
1(A). Defendant Coonce intentionally killed the victim, Victor Castro-Rodriguez, by
causing Victor Castro-Rodriguez to be bound and then causing Victor CastroRodriguez’s neck to be stepped on as Victor Castro-Rodriguez lay on the floor,
which resulted in Victor Castro-Rodriguez’s death. To establish that Defendant
Coonce intentionally killed Victor Castro-Rodriguez, the Government must prove
that Defendant Coonce killed Victor Castro-Rodriguez with a conscious desire to
cause Victor Castro-Rodriguez’s death; or
1(B). Defendant Coonce intentionally inflicted serious bodily injury that resulted in the
death of the victim, Victor Castro-Rodriguez, by causing Victor Castro-Rodriguez
to be bound and then causing Victor Castro-Rodriguez’s neck to be stepped on as

12
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 12 of 83

A-063

Victor Castro-Rodriguez lay on the floor, which resulted in Victor CastroRodriguez’s death.

The Government must prove that Defendant Coonce

deliberately caused serious injury to Victor Castro-Rodriguez’s body, which in
turn caused Victor Castro-Rodriguez’s death. “Serious bodily injury” means a
significant or considerable amount of injury that involves a substantial risk of
death, unconsciousness, extreme physical pain, protracted and obvious
disfigurement, or protracted loss or impairment of a body member, organ, or
mental faculty; or
1(C). Defendant Coonce intentionally participated in an act, contemplating that the life
of a person, Victor Castro-Rodriguez, would be taken, or intending that lethal
force would be used in connection with a person, other than one (1) of the
participants in the offense, and the victim, Victor Castro-Rodriguez, died as a
direct result of the act, by causing Victor Castro-Rodriguez to be bound and then
causing Victor Castro-Rodriguez’s neck to be stepped on as Victor CastroRodriguez lay on the floor, which resulted in Victor Castro-Rodriguez’s death.
The Government must prove that Defendant Coonce deliberately caused Victor
Castro-Rodriguez’s neck to be stepped on with a conscious desire that a person be
killed or that lethal force be employed against a person. The phrase “lethal force”
means an act or acts of violence capable of causing death; or
1(D). Defendant Coonce intentionally and specifically engaged in an act of violence,
knowing that the act created a grave risk of death to a person, other than one (1)
of the participants in the offense, such that participation in the act constituted a
reckless disregard for human life and Victor Castro-Rodriguez died as a direct

13
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 13 of 83

A-064

result of the act, by causing Victor Castro-Rodriguez to be bound and then
causing Victor Castro-Rodriguez’s neck to be stepped on as Victor CastroRodriguez lay on the floor, which resulted in Victor Castro-Rodriguez’s death.
You need only find that Defendant Coonce committed one (1) of the alleged acts listed
above in order to proceed to the next question for deliberation; however, you must agree
unanimously and beyond a reasonable doubt as to that act or acts.
Intent or knowledge may be proved like anything else. You may consider any statements
made and acts done by Defendant Coonce, and all the facts and circumstances in evidence that
may aid in a determination of Defendant Coonce’s knowledge or intent.
You may, but are not required to, infer that a person intends the natural and probable
consequences of acts knowingly done or knowingly omitted.

14
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 14 of 83

A-065

INSTRUCTION NO. 7
If you find that the Government proved unanimously and beyond a reasonable doubt that
Defendant Coonce intentionally committed the murder of Victor Castro-Rodriguez in one (1) of
the manners described in Instruction No. 6 for each count for which he is charged, you must then
determine whether the Government proved unanimously and beyond a reasonable doubt the
existence of any of the following alleged statutory aggravating factors as to Defendant Coonce
for each count for which he is charged with respect to the same murder of Victor CastroRodriguez. If you find that the Government proved unanimously and beyond a reasonable doubt
the existence of any of the following alleged statutory aggravating factors as to Defendant
Coonce for each count for which he is charged with respect to the same murder of Victor CastroRodriguez, you should so indicate on the appropriate page in Section III of the Special Verdict
Forms for Defendant Coonce and continue your deliberations. If you do not find that the
Government proved unanimously and beyond a reasonable doubt the existence of any of the
following alleged statutory aggravating factors as to Defendant Coonce for any count for which
he is charged with respect to the same murder of Victor Castro-Rodriguez, you should so
indicate on the appropriate page in Section III of the Special Verdict Form for that count and
follow the instructions at the end of Section III, and no further deliberations will be necessary.
The first statutory aggravating factor alleged by the Government as to Defendant Coonce
for each count is that the death, or injuries resulting in death, of Victor Castor-Rodriguez
occurred during the commission, or attempted commission, of murder by a federal prisoner
serving a life term.
The second statutory aggravating factor alleged by the Government for each count is that
Defendant Coonce has previously been convicted of two (2) or more state or federal offenses,

15
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 15 of 83

A-066

each of which was punishable by a term of imprisonment of more than one (1) year, committed
on different occasions, and involved the infliction, or attempted infliction, of serious bodily
injury upon another person, which are:
1.

Kidnaping and Car Jacking, United States District Court for the Northern
District of Texas, Case No. 02-058-Y(01), date of conviction September
16, 2002, in which Defendant Coonce kidnaped at knife point L.S.,
carjacked her vehicle, and then forcibly raped L.S.; and

2.

Assault on a Public Servant, 235th District Court of Cooke County,
Gainesville, Texas, Case No. 98-024, date of conviction, March 27, 1998,
in which Defendant Coonce, while attempting to evade capture by a Texas
Juvenile Security Officer, threw a fist-sized rock into the officer’s chest,
knocking the officer to the ground and causing serious bruising to the
officer’s chest.

The third statutory aggravating factor alleged by the Government for each count is that
Defendant Coonce committed the offense in an especially heinous, cruel, or depraved manner in
that it involved torture or serious physical abuse to Victor Castro-Rodriguez because Defendant
Coonce caused Victor Castro-Rodriguez to be bound and caused Victor Castro-Rodriguez’s neck
to be stepped on, which resulted in extensive hemorrhaging to Victor Castro-Rodriguez’s chest
and caused Victor Castro-Rodriguez’s death by asphyxia secondary to tracheal compression. To
establish that Defendant Coonce killed Victor Castro-Rodriguez in an especially heinous, cruel,
or depraved manner, the Government must prove that the killing involved either torture or
serious physical abuse to Victor Castro-Rodriguez. You must not find this factor to exist unless
you unanimously agree as to which alternative — torture or serious physical abuse — has been

16
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 16 of 83

A-067

proved beyond a reasonable doubt. In other words, all twelve (12) of you must agree that it
involved torture and was thus heinous, cruel, or depraved; or all twelve (12) of you must agree
that it involved serious physical abuse to Victor Castro-Rodriguez and was thus heinous, cruel,
or depraved.
“Heinous” means extremely wicked or shockingly evil, where the killing was
accompanied by such additional acts of torture or serious physical abuse of Victor CastroRodriguez as to set it apart from other killings.
“Cruel” means that Defendant Coonce intended to inflict a high degree of pain by
torturing Victor Castro-Rodriguez in addition to killing Victor Castro-Rodriguez.
“Depraved” means that Defendant Coonce relished the killing or showed indifference to
the suffering of Victor Castro-Rodriguez, as evidenced by torture or serious physical abuse of
Victor Castro-Rodriguez.
“Torture” includes mental as well as physical abuse of Victor Castro-Rodriguez. In
either case, Victor Castro-Rodriguez must have been conscious of the abuse at the time it was
inflicted, and Defendant Coonce must have specifically intended to inflict severe mental or
physical pain or suffering upon Victor Castro-Rodriguez, in addition to the killing of Victor
Castro-Rodriguez.
“Serious physical abuse” means a significant or considerable amount of injury or damage
to Victor Castro-Rodriguez’s body. Serious physical abuse — unlike torture — may be inflicted
either before or after death and does not require that Victor Castro-Rodriguez be conscious of the
abuse at the time it was inflicted. However, Defendant Coonce must have specifically intended
the abuse in addition to the killing.

17
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 17 of 83

A-068

Factors to consider in determining whether a killing was especially heinous, cruel, or
depraved include: an infliction of gratuitous violence upon Victor Castro-Rodriguez above and
beyond that necessary to commit the killing; the needless mutilation of Victor CastroRodriguez’s body; the senselessness of the killing; and the helplessness of Victor CastroRodriguez.
The word “especially” means highly or unusually great, distinctive, peculiar, particular,
or significant, when compared to other killings.
The fourth statutory aggravating factor alleged by the Government for each count is that
Defendant Coonce committed the offense after substantial planning and premeditation to cause
the death of Victor Castro-Rodriguez. “Planning” means mentally formulating a method for
doing something or achieving some end. “Premeditation” means thinking or deliberating about
something and deciding whether to do it beforehand. “Substantial” planning and premeditation
means a considerable or significant amount of planning and premeditation.
The law directs you to consider and decide at this point the existence or nonexistence of
only the statutory aggravating factors specifically claimed by the Government.

You are

reminded that to find the existence of a statutory aggravating factor, your decision must be
unanimous and beyond a reasonable doubt.

18
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 18 of 83

A-069

INSTRUCTION NO. 8
If you find the Government proved unanimously and beyond a reasonable doubt the
existence of one (1) or more statutory aggravating factors as to Defendant Coonce for each count
for which he is charged, you must then consider whether the Government has proved the
existence of any non-statutory aggravating factors as to Defendant Coonce for each count for
which he is charged. As in the case for statutory aggravating factors, you must determine
whether the Government has proved unanimously and beyond a reasonable doubt the existence
of any of the alleged non-statutory aggravating factors before you may consider such factors in
your deliberations on the appropriate punishment for Defendant Coonce in this case.
In addition to any statutory aggravating factors you have found to exist, you are permitted
to consider and discuss only the non-statutory aggravating factors specifically claimed by the
Government and listed below. You must not consider any other facts in aggravation that you
think of on your own.
The first non-statutory aggravating factor alleged by the Government for each count is
that Defendant Coonce presents a future danger to others based upon the probability that
Defendant Coonce would commit criminal acts of violence that would constitute a continuing
threat to the lives and safety of others. Defendant Coonce has engaged in a continuing pattern of
violent conduct, has threatened others with violence, has demonstrated lack of remorse, and/or
has demonstrated a low rehabilitative potential.
The second non-statutory aggravating factor alleged by the Government for each count is
that Defendant Coonce committed conduct suggesting a grave indifference to human life.
The third non-statutory aggravating factor alleged by the Government for each count is
that Defendant Coonce has shown a lack of remorse in the death of Victor Castro-Rodriguez.

19
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 19 of 83

A-070

The fourth non-statutory aggravating factor alleged by the Government for each count is
that Defendant Coonce acted to obstruct justice or to retaliate against Victor Castro-Rodriguez
because of Victor Castro-Rodriguez’s assistance to prison officials and guards in reporting
inmate misconduct and in physical altercations between inmates and prison guards.
At this point, you must record your findings regarding whether you find that the
Government has proved unanimously and beyond a reasonable doubt the existence of any of
these non-statutory aggravating factors as to Defendant Coonce for each count for which he is
charged. Please enter that finding on the appropriate page in Section IV of the Special Verdict
Forms for each count for Defendant Coonce and continue your deliberations.

20
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 20 of 83

A-071

INSTRUCTION NO. 9
Before you may consider the appropriate punishment for Defendant Coonce, you must
consider whether Defendant Coonce has established the existence of any mitigating factors for
each count for which he is charged. A mitigating factor is a fact about Defendant Coonce’s life
or character, or about the circumstances surrounding the offenses that would suggest, in fairness,
that a sentence of death is not the most appropriate punishment, or that a sentence of life
imprisonment without the possibility of release is the more appropriate punishment.
Unlike aggravating factors, which you must unanimously find the Government proved
beyond a reasonable doubt in order to consider them in your deliberations, the law does not
require unanimous agreement with regard to mitigating factors. Any juror persuaded of the
existence of a mitigating factor must consider it in this case. Further, any juror may consider a
mitigating factor found by another juror, even if he or she did not find that factor to be
mitigating.
It is Defendant Coonce’s burden to establish any mitigating factors but only by the
preponderance of the evidence. This is a lesser standard of proof under the law than proof
beyond a reasonable doubt. A factor is established by the preponderance of the evidence if its
existence is shown to be more likely so than not so. In other words, the preponderance of the
evidence means such evidence as, when considered and compared with that opposed to it,
produces in your mind the belief that what is sought to be established is, more likely than not,
true. In Section V of the Special Verdict Forms relating to mitigating factors as to Defendant
Coonce for each count for which he is charged, you are asked to report the total number of jurors
that find a particular mitigating factor established by the preponderance of the evidence.

21
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 21 of 83

A-072

INSTRUCTION NO. 10
The mitigating factors that Defendant Coonce asserts he has proved by the preponderance
of the evidence for each count are:
1.

Defendant Coonce’s childhood was marked by chaos, abuse (both physical

and sexual), as well as neglect and abandonment.
2.

Defendant Coonce’s mother, Linda Coonce, was addicted to illegal drugs

and alcohol.
3.

Linda Coonce used alcohol and illegal drugs while pregnant with

Defendant Coonce.
4.

Defendant Coonce’s Father, Wesley Coonce, Sr., was addicted to drugs.

5.

Mental, emotional, and behavioral disorders are widespread on both sides

of Defendant Coonce’s family.
6.

Defendant Coonce’s family has a pattern of broken relationships,

abandonment, and loss.
7.

Defendant Coonce has suffered from mental and emotional impairments

from a very young age.
8.

When Defendant Coonce was four (4) and six (6) years old, his mother

admitted him to the Hawthorn Center, an in-patient psychiatric hospital for children.
9.

When Defendant Coonce was a patient at the Hawthorn Center, his mother

failed to cooperate with his treatment.
10.

Defendant Coonce responded in a positive manner to the structure,

treatment, and affection he received in the Hawthorn Center.

22
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 22 of 83

A-073

11.

Defendant Coonce has shown remorse for what he did in connection with

the offense.
12.

Defendant Coonce has a loving and caring relationship with family

members and former foster family members, and those relationships would continue if
Defendant Coonce was sentenced to life imprisonment without the possibility of release.
13.

Defendant Coonce suffers from Bipolar disorder, which was first

diagnosed at age seventeen (17).
14.

The chaotic and abusive life that Defendant Coonce endured as a young

child increased his risk for emotional and mental disturbances in his adult life.
15.

After Defendant Coonce’s release from prison in Texas, he tried to get

help for his mental illness.
16.

When Defendant Coonce was twenty (20) years old, he sustained

traumatic brain injuries as a result of a car crash.
17.

Inmates like Defendant Coonce, who have committed sexual offenses,

know that they are targeted by other inmates and that they are at risk of injury or death.
18.

In 2007, while in federal prison, Defendant Coonce was brutally assaulted

by another inmate, resulting in an additional traumatic brain injury.
19.

As a result of his traumatic brain injuries, Defendant Coonce’s full scale

IQ dropped from 105 to a present 71.
20.

Defendant Coonce’s brain damage and low intelligence make him more

susceptible to the influence of others.
21.

Defendant Coonce played a lesser role in the murder of Victor Castro-

Rodriguez than did his co-defendant, Defendant Hall.

23
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 23 of 83

A-074

22.

Other inmates, equally culpable in the crime, will not be punished by

23.

Defendant Coonce has attempted to kill himself many times, both in and

death.

out of prison.
24.

For at least twenty-four (24) months, Defendant Coonce has committed no

violations of disciplinary rules at any institution where he has been confined.
25.

Successful management of Defendant Coonce’s medication is a major

factor in his good behavior in the last two (2) years.
26.

There are other reasons that weigh against the imposition of a sentence of

death for Defendant Coonce.
You are permitted to consider anything else about the commission of the crime or about
Defendant Coonce’s background or character that would mitigate against imposition of the death
penalty. If there are any such mitigating factors, whether or not specifically argued by defense
counsel, which are established by the preponderance of the evidence, you are free to consider
them in your deliberations.
On the appropriate page of Section V of the Special Verdict Forms for Defendant
Coonce, you are asked to identify any mitigating factors for Defendant Coonce for each count for
which he is charged that any one (1) of you finds has been proved by the preponderance of the
evidence.

24
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 24 of 83

A-075

INSTRUCTION NO. 11
Under Counts I and II as to Defendant Coonce, if you find the Government proved
unanimously and beyond a reasonable doubt that Defendant Coonce acted with the requisite
mental state; and that the Government proved unanimously and beyond a reasonable doubt the
existence of at least one (1) statutory aggravating factor as to Defendant Coonce; and after you
then determine whether the Government proved unanimously and beyond a reasonable doubt the
existence of any non-statutory aggravating factors submitted to you as to Defendant Coonce; and
whether Defendant Coonce proved by the preponderance of the evidence the existence of any
mitigating factors, you will then engage in a weighing process. In determining the appropriate
sentence as to Defendant Coonce for each count for which he is charged, all of you must weigh
the aggravating factor or factors that you unanimously found to exist — whether statutory or
non-statutory — and each of you must weigh any mitigating factors that you individually found
to exist, and may weigh any mitigating factors that another of your fellow jurors found to exist.
In engaging in the weighing process, you must avoid any influence of passion, prejudice, or
undue sympathy. Your deliberations should be based upon the evidence you have seen and
heard and the law on which I have instructed you.
Again, whether or not the circumstances in this case justify a sentence of death is a
decision that the law leaves entirely to you.
The process of weighing aggravating and mitigating factors against each other in order to
determine the proper punishment is not a mechanical process. In other words, you should not
simply count the number of aggravating and mitigating factors and reach a decision based upon
which number is greater; you should consider the weight and value of each factor.

25
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 25 of 83

A-076

The law contemplates that different factors may be given different weights or values by
different jurors. Thus, you may find that one (1) mitigating factor outweighs all aggravating
factors combined, or that the aggravating factor proved does not, standing alone, justify
imposition of a sentence of death. If one (1) or more of you so find, you must return a sentence
of life in prison without the possibility of release. Similarly, you may unanimously find that a
particular aggravating factor sufficiently outweighs all mitigating factors combined to justify a
sentence of death. You are to decide what weight or value is to be given to a particular
aggravating or mitigating factor in your decision-making process.
Under Counts I and II as to Defendant Coonce, if you unanimously conclude that the
aggravating factor or factors found to exist sufficiently outweigh any mitigating factor or factors
that any of you found to exist to justify a sentence of death, and that therefore death is an
appropriate sentence in this case for each count, you must record your determination that a
sentence of death shall be imposed on the appropriate page in Section VI(A) of the Special
Verdict Forms as to Defendant Coonce for each count for which he is charged.
If you determine that death is not justified for any count as to Defendant Coonce, you
must complete Section VI(A) on the appropriate page of the Special Verdict Form for that count,
and you must then record your determination that Defendant Coonce be sentenced to life
imprisonment without the possibility of release on the appropriate page in Section VI(B) of the
Special Verdict Form for that count.
You are reminded that you are to make a separate determination for each count for
Defendant Coonce, and you should make a separate determination for Defendant Coonce from
your decision involving Defendant Hall.

26
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 26 of 83

A-077

INSTRUCTION NO. 12
The Government and Defendant Charles Michael Hall have stipulated — that is, they
have agreed — that Defendant Hall was eighteen (18) years of age or older at the time of the
offense. You must therefore treat that fact as having been proved.

27
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 27 of 83

A-078

INSTRUCTION NO. 13
Before you may consider whether to impose the death penalty as to Defendant Hall, you
must determine whether the Government has proved unanimously and beyond a reasonable
doubt that Defendant Hall intentionally committed acts resulting in the death of Victor CastroRodriguez in one (1) of the manners described below. If you unanimously make that finding as
to the murder of Victor Castro-Rodriguez as to Defendant Hall, you should so indicate on the
appropriate page in Section II of the Special Verdict Form for Defendant Hall and continue your
deliberations. If you do not unanimously make that finding as to the murder of Victor CastroRodriguez as to Defendant Hall, you should so indicate on the appropriate page in Section II of
the Special Verdict Form for Defendant Hall and follow the instructions on the appropriate page
at the end of Section II, and no further deliberations will be necessary.
Under Count I as to Defendant Hall, the Government alleges that:
1(A). Defendant Hall intentionally killed the victim, Victor Castro-Rodriguez, by
causing Victor Castro-Rodriguez to be bound and then causing Victor CastroRodriguez’s neck to be stepped on as Victor Castro-Rodriguez lay on the floor,
which resulted in Victor Castro-Rodriguez’s death. To establish that Defendant
Hall intentionally killed Victor Castro-Rodriguez, the Government must prove
that Defendant Hall killed Victor Castro-Rodriguez with a conscious desire to
cause Victor Castro-Rodriguez’s death; or
1(B). Defendant Hall intentionally inflicted serious bodily injury that resulted in the
death of the victim, Victor Castro-Rodriguez, by causing Victor Castro-Rodriguez
to be bound and then causing Victor Castro-Rodriguez’s neck to be stepped on as
Victor Castro-Rodriguez lay on the floor, which resulted in Victor Castro-

28
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 28 of 83

A-079

Rodriguez’s death. The Government must prove that Defendant Hall deliberately
caused serious injury to Victor Castro-Rodriguez’s body, which in turn caused
Victor Castro-Rodriguez’s death. “Serious bodily injury” means a significant or
considerable amount of injury that involves a substantial risk of death,
unconsciousness, extreme physical pain, protracted and obvious disfigurement, or
protracted loss or impairment of a body member, organ, or mental faculty; or
1(C). Defendant Hall intentionally participated in an act, contemplating that the life of a
person, Victor Castro-Rodriguez, would be taken, or intending that lethal force
would be used in connection with a person, other than one (1) of the participants
in the offense, and the victim, Victor Castro-Rodriguez, died as a direct result of
the act, by causing Victor Castro-Rodriguez to be bound and then causing Victor
Castro-Rodriguez’s neck to be stepped on as Victor Castro-Rodriguez lay on the
floor, which resulted in Victor Castro-Rodriguez’s death. The Government must
prove that Defendant Hall deliberately caused Victor Castro-Rodriguez’s neck to
be stepped on with a conscious desire that a person be killed or that lethal force be
employed against a person. The phrase “lethal force” means an act or acts of
violence capable of causing death; or
1(D). Defendant Hall intentionally and specifically engaged in an act of violence,
knowing that the act created a grave risk of death to a person, other than one (1)
of the participants in the offense, such that participation in the act constituted a
reckless disregard for human life and Victor Castro-Rodriguez died as a direct
result of the act, by causing Victor Castro-Rodriguez to be bound and then

29
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 29 of 83

A-080

causing Victor Castro-Rodriguez’s neck to be stepped on as Victor CastroRodriguez lay on the floor, which resulted in Victor Castro-Rodriguez’s death.
You need only find that Defendant Hall committed one (1) of the alleged acts listed
above in order to proceed to the next question for deliberation; however, you must agree
unanimously beyond a reasonable doubt as to that act or acts.
Intent or knowledge may be proved like anything else. You may consider any statements
made and acts done by Defendant Hall, and all the facts and circumstances in evidence that may
aid in a determination of Defendant Hall’s knowledge or intent.
You may, but are not required to, infer that a person intends the natural and probable
consequences of acts knowingly done or knowingly omitted.

30
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 30 of 83

A-081

INSTRUCTION NO. 14
If you find that the Government proved unanimously and beyond a reasonable doubt that
Defendant Hall intentionally committed the murder of Victor Castro-Rodriguez in one (1) of the
manners described in Instruction No. 13, you must then proceed to determine whether the
Government proved unanimously and beyond a reasonable doubt the existence of any of the
following alleged statutory aggravating factors as to Defendant Hall with respect to the same
murder of Victor Castro-Rodriguez. If you find that the Government proved unanimously and
beyond a reasonable doubt the existence of any of the following alleged statutory aggravating
factors as to Defendant Hall with respect to the same murder of Victor Castro-Rodriguez, you
should so indicate on the appropriate page in Section III of the Special Verdict Form for
Defendant Hall and continue your deliberations. If you do not find that the Government proved
unanimously and beyond a reasonable doubt the existence of any of the following alleged
statutory aggravating factors as to Defendant Hall with respect to the same murder of Victor
Castro-Rodriguez, you should so indicate on the appropriate page in Section III of the Special
Verdict Form for Defendant Hall and follow the instructions on the appropriate page at the end
of Section III, and no further deliberations will be necessary.
The first statutory aggravating factor alleged by the Government is that Defendant Hall
committed the offense in an especially heinous, cruel, or depraved manner in that it involved
torture or serious physical abuse to Victor Castro-Rodriguez because Defendant Hall caused
Victor Castro-Rodriguez to be bound and caused Victor Castro-Rodriguez’s neck to be stepped
on, which resulted in extensive hemorrhaging to Victor Castro-Rodriguez’s chest and caused
Victor Castro-Rodriguez’s death by asphyxia secondary to tracheal compression. To establish
that Defendant Hall killed Victor Castro-Rodriguez in an especially heinous, cruel, or depraved

31
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 31 of 83

A-082

manner, the Government must prove that the killing involved either torture or serious physical
abuse to Victor Castro-Rodriguez. You must not find this factor to exist unless you unanimously
agree as to which alternative — torture or serious physical abuse — has been proved beyond a
reasonable doubt. In other words, all twelve (12) of you must agree that it involved torture and
was thus heinous, cruel, or depraved; or all twelve (12) of you must agree that it involved serious
physical abuse to Victor Castro-Rodriguez and was thus heinous, cruel, or depraved.
“Heinous” means extremely wicked or shockingly evil, where the killing was
accompanied by such additional acts of torture or serious physical abuse of Victor CastroRodriguez as to set it apart from other killings.
“Cruel” means that Defendant Hall intended to inflict a high degree of pain by torturing
Victor Castro-Rodriguez in addition to killing Victor Castro-Rodriguez.
“Depraved” means that Defendant Hall relished the killing or showed indifference to the
suffering of Victor Castro-Rodriguez, as evidenced by torture or serious physical abuse of Victor
Castro-Rodriguez.
“Torture” includes mental as well as physical abuse of Victor Castro-Rodriguez. In
either case, Victor Castro-Rodriguez must have been conscious of the abuse at the time it was
inflicted, and Defendant Hall must have specifically intended to inflict severe mental or physical
pain or suffering upon Victor Castro-Rodriguez, in addition to the killing of Victor CastroRodriguez.
“Serious physical abuse” means a significant or considerable amount of injury or damage
to Victor Castro-Rodriguez’s body. Serious physical abuse — unlike torture — may be inflicted
either before or after death and does not require that Victor Castro-Rodriguez be conscious of the

32
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 32 of 83

A-083

abuse at the time it was inflicted. However, Defendant Hall must have specifically intended the
abuse in addition to the killing.
Factors to consider in determining whether a killing was especially heinous, cruel, or
depraved include: an infliction of gratuitous violence upon Victor Castro-Rodriguez above and
beyond that necessary to commit the killing; the needless mutilation of Victor CastroRodriguez’s body; the senselessness of the killing; and the helplessness of Victor CastroRodriguez.
The word “especially” means highly or unusually great, distinctive, peculiar, particular,
or significant, when compared to other killings.
The second statutory aggravating factor alleged by the Government is that Defendant
Hall committed the offense after substantial planning and premeditation to cause the death of
Victor Castro-Rodriguez. “Planning” means mentally formulating a method for doing something
or achieving some end. “Premeditation” means thinking or deliberating about something and
deciding whether to do it beforehand.

“Substantial” planning and premeditation means a

considerable or significant amount of planning and premeditation.
The law directs you to consider and decide at this point the existence or nonexistence of
only the statutory aggravating factors specifically claimed by the Government.

You are

reminded that to find the existence of a statutory aggravating factor, your decision must be
unanimous and beyond a reasonable doubt.

33
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 33 of 83

A-084

INSTRUCTION NO. 15
If you find the Government proved unanimously and beyond a reasonable doubt the
existence of one (1) or more statutory aggravating factors as to Defendant Hall, you must then
consider whether the Government has proved the existence of any non-statutory aggravating
factors as to Defendant Hall.

As in the case for statutory aggravating factors, you must

determine whether the Government has proved unanimously and beyond a reasonable doubt the
existence of any of the alleged non-statutory aggravating factors before you may consider such
factors in your deliberations on the appropriate punishment for Defendant Hall in this case.
In addition to any statutory aggravating factors you have found to exist, you are permitted
to consider and discuss only the non-statutory aggravating factors specifically claimed by the
Government and listed below. You must not consider any other facts in aggravation that you
think of on your own.
The first non-statutory aggravating factor alleged by the Government is that Defendant
Hall presents a future danger to others based upon the probability that Defendant Hall would
commit criminal acts of violence that would constitute a continuing threat to the lives and safety
of others. Defendant Hall has engaged in a continuing pattern of violent conduct, has threatened
others with violence, has demonstrated lack of remorse, and/or has demonstrated a low
rehabilitative potential.
The second non-statutory aggravating factor alleged by the Government is that Defendant
Hall committed conduct suggesting a grave indifference to human life.
The third non-statutory aggravating factor alleged by the Government is that Defendant
Hall has shown a lack of remorse in the death of Victor Castro-Rodriguez.

34
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 34 of 83

A-085

The fourth non-statutory aggravating factor alleged by the Government is that Defendant
Hall acted to obstruct justice or to retaliate against Victor Castro-Rodriguez because of Victor
Castro-Rodriguez’s assistance to prison officials and guards in reporting inmate misconduct and
in physical altercations between inmates and prison guards.
At this point, you must record your findings regarding whether you find that the
Government has proved unanimously and beyond a reasonable doubt the existence of any of
these non-statutory aggravating factors as to Defendant Hall. Please enter that finding on the
appropriate page in Section IV of the Special Verdict Form for Defendant Hall and continue your
deliberations.

35
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 35 of 83

A-086

INSTRUCTION NO. 16
Before you may consider the appropriate punishment for Defendant Hall, you must
consider whether Defendant Hall has established the existence of any mitigating factors. A
mitigating factor is a fact about Defendant Hall’s life or character, or about the circumstances
surrounding the offense that would suggest, in fairness, that a sentence of death is not the most
appropriate punishment, or that a sentence of life imprisonment without the possibility of release
is the more appropriate punishment.
Unlike aggravating factors, which you must unanimously find the government proved
beyond a reasonable doubt in order to consider them in your deliberations, the law does not
require unanimous agreement with regard to mitigating factors. Any juror persuaded of the
existence of a mitigating factor must consider it in this case. Further, any juror may consider a
mitigating factor found by another juror, even if he or she did not find that factor to be
mitigating.
It is Defendant Hall’s burden to establish any mitigating factors but only by the
preponderance of the evidence. This is a lesser standard of proof under the law than proof
beyond a reasonable doubt. A factor is established by the preponderance of the evidence if its
existence is shown to be more likely so than not so. In other words, the preponderance of the
evidence means such evidence as, when considered and compared with that opposed to it,
produces in your mind the belief that what is sought to be established is, more likely than not,
true. In Section V of the Special Verdict Form relating to mitigating factors as to Defendant
Hall, you are asked to report the total number of jurors that find a particular mitigating factor
established by the preponderance of the evidence.

36
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 36 of 83

A-087

INSTRUCTION NO. 17
The mitigating factors that Defendant Hall asserts he has proved by the preponderance of
the evidence are:
1.

Defendant Hall has accepted responsibility for what he did in connection

with this offense.
2.

Defendant Hall has shown remorse for what he did in connection with this

offense.
3.

Defendant Hall has had no institutional rules or disciplinary violations

since January 26, 2010, the date of this offense.
4.

Defendant Hall has, for many years, suffered from the mental illness of

Bipolar disorder.
5.

Defendant Hall has, since 1993, suffered with the serious illness of

Crohn’s disease.
6.

On September 2, 1994, Defendant Hall suffered a significant brain injury

due to a motorcycle accident.
7.

At the time of this offense, Defendant Hall’s capacity to appreciate the

wrongfulness of his conduct or to conform his conduct to the requirements of the law was
significantly impaired.
8.

Defendant Hall committed this offense under severe mental or emotional

disturbance.
9.

Defendant Hall has a loving and caring relationship with his mother,

Dorothy Hall, his father, Charles V. Hall, and his sister, Michelle Bories, and those

37
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 37 of 83

A-088

relationships would continue if Defendant Hall was sentenced to life imprisonment
without the possibility of release.
10.

Defendant Hall has demonstrated the ability to help others, such as when

he patiently taught his disabled nephew how to crawl.
11.

Defendant Hall suffers from low self-esteem, as evidenced by him telling

untruths to make himself sound more important to others.
12.

Defendant Hall has strong talents in sketch art, poetry, and music.

13.

While incarcerated, Defendant Hall has been the victim of serious assaults.

14.

Prior to January 26, 2010, the date of the offense, Defendant Hall gave

warnings to prison officials about homicidal thoughts he was having, but those warnings
were not heeded by prison officials.
15.

Bureau of Prisons staff failed to properly monitor Defendant Hall by

failing to place him in seclusion, restraints, or twenty-four (24) hour personal observation
on January 26, 2010.
16.

Dangers in prison, particularly the need to retaliate for conduct by Victor

Castro-Rodriguez against Defendant Hall, explain in part why this offense happened.
17.

There are other reasons that weigh against the imposition of a sentence of

death for Defendant Hall.
You are permitted to consider anything else about the commission of the crime or about
Defendant Hall’s background or character that would mitigate against imposition of the death
penalty for Defendant Hall. If there are any such mitigating factors, whether or not specifically
argued by defense counsel, which are established by the preponderance of the evidence, you are
free to consider them in your deliberations.

38
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 38 of 83

A-089

On the appropriate page in Section V of the Special Verdict Form for Defendant Hall,
you are asked to identify any mitigating factors for Defendant Hall that any one (1) of you finds
has been proved by the preponderance of the evidence.

39
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 39 of 83

A-090

INSTRUCTION NO. 18
Under Count I as to Defendant Hall, if you find that the Government proved unanimously
and beyond a reasonable doubt that Defendant Hall acted with the requisite mental state; and that
the Government proved unanimously and beyond a reasonable doubt the existence of at least one
(1) statutory aggravating factor as to Defendant Hall; and after you then determine whether the
Government proved unanimously and beyond a reasonable doubt the existence of any nonstatutory aggravating factors submitted to you as to Defendant Hall; and whether Defendant Hall
proved by the preponderance of the evidence the existence of any mitigating factors, you will
then engage in a weighing process. In determining the appropriate sentence for Defendant Hall,
all of you must weigh the aggravating factor or factors that you unanimously found to exist —
whether statutory or non-statutory — and each of you must weigh any mitigating factors that you
individually found to exist, and may weigh any mitigating factors that another of your fellow
jurors found to exist. In engaging in the weighing process, you must avoid any influence of
passion, prejudice, or undue sympathy. Your deliberations should be based upon the evidence
you have seen and heard and the law on which I have instructed you.
Again, whether or not the circumstances in this case justify a sentence of death is a
decision that the law leaves entirely to you.
The process of weighing aggravating and mitigating factors against each other in order to
determine the proper punishment is not a mechanical process. In other words, you should not
simply count the number of aggravating and mitigating factors and reach a decision based upon
which number is greater; you should consider the weight and value of each factor.
The law contemplates that different factors may be given different weights or values by
different jurors. Thus, you may find that one (1) mitigating factor outweighs all aggravating

40
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 40 of 83

A-091

factors combined, or that the aggravating factors proved do not, standing alone, justify
imposition of a sentence of death. If one (1) or more of you so find, you must return a sentence
of life in prison without the possibility of release. Similarly, you may unanimously find that a
particular aggravating factor sufficiently outweighs all mitigating factors combined to justify a
sentence of death. You are to decide what weight or value is to be given to a particular
aggravating or mitigating factor in your decision-making process.
Under Count I as to Defendant Hall, if you unanimously conclude that the aggravating
factor or factors found to exist sufficiently outweigh any mitigating factor or factors that any of
you found to exist to justify a sentence of death, and that therefore death is an appropriate
sentence in this case, you must record your determination that a sentence of death shall be
imposed on the appropriate page in Section VI(A) of the Special Verdict Form for Defendant
Hall.
If you determine that death is not justified for Defendant Hall, you must complete Section
VI(A) on the appropriate page of the Special Verdict Form for Defendant Hall, and you must
then record your determination that Defendant Hall be sentenced to life imprisonment without
the possibility of release on the appropriate page in Section VI(B) of the Special Verdict Form
for Defendant Hall.
You are reminded that you are to make a separate determination for Defendant Hall from
your decision involving Defendant Coonce.

41
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 41 of 83

A-092

INSTRUCTION NO. 19
At the end of your deliberations, if you unanimously determine that Defendant Coonce
and Defendant Hall should be sentenced to death or to life imprisonment without the possibility
of release, the court is required to impose that sentence.
Under Counts I and II as to Defendant Coonce, and under Count I as to Defendant Hall, if
you cannot unanimously agree whether the Defendants should be sentenced to death or life
imprisonment without the possibility of release, the court will sentence the Defendants to life
imprisonment without the possibility of release. There is no parole in the federal system.
Again, you are reminded that you are to make a separate determination for each
Defendant and for each count for which he is charged

42
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 42 of 83

A-093

INSTRUCTION NO. 20
In your consideration of whether the death penalty is justified, you must not consider the
race, color, religious beliefs, national origin, or sex of either Defendant or Victor CastroRodriguez. You are not to return a sentence of death unless you would return a sentence of death
for the crime in question without regard to the race, color, religious beliefs, national origin, or
sex of either Defendant and Victor Castro-Rodriguez.
To emphasize the importance of this consideration, Section VII of each Special Verdict
Form contains a certification statement. Each juror should carefully read the statement, and sign
in the appropriate place if the statement accurately reflects the manner in which each of you
reached your decision.

43
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 43 of 83

A-094

INSTRUCTION NO. 21
You have heard testimony from persons described as experts.

Persons who, by

knowledge, skill, training, education, or experience, have become expert in some field may state
their opinions on matters in that field and may also state the reasons for their opinion.
Expert testimony should be considered just like any other testimony. You may accept or
reject it, and give it as much weight as you think it deserves, considering the witness’s education
and experience, the soundness of the reasons given for the opinion, the acceptability of the
methods used, and all the other evidence in the case.

44
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 44 of 83

A-095

INSTRUCTION NO. 22
I have prepared forms entitled “Special Verdict Form” to assist you during your
deliberations as to each Defendant for each count for which he is charged. You are required to
record your decisions on these forms.
Section II of each Special Verdict Form contains space to record your findings on the
requisite mental state; Section III contains space to record your findings on statutory aggravating
factors; and Section IV contains space to record your findings on non-statutory aggravating
factors. Section V of each Special Verdict Form contains space to record your findings on
mitigating factors.
You are each required to sign each Special Verdict Form.

45
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 45 of 83

A-096

INSTRUCTION NO. 23
If you want to communicate with me at any time during your deliberations, please write
down your message or question and pass the note to Ms. Moore who will bring it to my attention.
I will respond as promptly as possible, either in writing or by having you return to the
courtroom so that I can address you orally.
I caution you, however, with any message or question you might send, that you should
not tell me any details of your deliberations or how many of you are voting in a particular way
on any issue.
Let me remind you again that nothing that I have said in these instructions — and nothing
that I have said or done during the trial — has been said or done to suggest to you what I think
your decision should be. The decision is your exclusive responsibility.

46
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 46 of 83

A-097

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)

Plaintiff,
vs.
WESLEY PAUL COONCE, JR.,
Defendant.

Case No. 10-03029-CR-S-GAF

SPECIAL VERDICT FORM
COUNT I
I.

AGE OF DEFENDANT
Instructions: The Government and Defendant Coonce have stipulated — that is, they

have agreed — that Defendant Coonce was eighteen (18) years of age or older at the time of the
offense. You must therefore treat that fact as having been proved and proceed to Section II,
which follows.
II.

REQUISITE MENTAL STATE
Instructions: For each of the following, answer “YES” or “NO.”
1(A). Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce intentionally killed the victim, Victor CastroRodriguez, by causing Victor Castro-Rodriguez to be bound and then causing Victor CastroRodriguez’s neck to be stepped on as Victor Castro-Rodriguez lay on the floor, which resulted in
Victor Castro-Rodriguez’s death, as set out in Instruction No. 6?
YES

___________

NO

___________

1
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 47 of 83

A-098

___________________________
Foreperson
1(B). Do you, the jury, unanimously find that the Government has established beyond a
reasonable doubt that Defendant Coonce intentionally inflicted serious bodily injury that resulted
in the death of the victim, Victor Castro-Rodriguez, by causing Victor Castro-Rodriguez to be
bound and then causing Victor Castro-Rodriguez’s neck to be stepped on as Victor CastroRodriguez lay on the floor, which resulted in Victor Castro-Rodriguez’s death, as set out in
Instruction No. 6?
YES

___________

NO

___________

___________________________
Foreperson
1(C). Do you, the jury, unanimously find that the Government has established beyond a
reasonable doubt that Defendant Coonce intentionally participated in an act, contemplating that
the life of a person, Victor Castro-Rodriguez, would be taken, or intending that lethal force
would be used in connection with a person, other than one (1) of the participants in the offense,
and the victim, Victor Castro-Rodriguez, died as a direct result of the act, by causing Victor
Castro-Rodriguez to be bound and then causing Victor Castro-Rodriguez’s neck to be stepped on
as Victor Castro-Rodriguez lay on the floor, which resulted in Victor Castro-Rodriguez’s death,
as set out in Instruction No. 6?
YES

___________

NO

___________

___________________________
Foreperson

2
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 48 of 83

A-099

1(D). Do you, the jury, unanimously find that the Government has established beyond a
reasonable doubt that Defendant Coonce intentionally and specifically engaged in an act of
violence, knowing that the act created a grave risk of death to a person, other than one (1) of the
participants in the offense, such that participation in the act constituted a reckless disregard for
human life and the victim, Victor Castro-Rodriguez, died as a direct result of the act, by causing
Victor Castro-Rodriguez to be bound and then causing Victor Castro-Rodriguez’s neck to be
stepped on as Victor Castro-Rodriguez lay on the floor, which resulted in Victor CastroRodriguez’s death, as set out in Instruction No. 6?
YES

___________

NO

___________

___________________________
Foreperson
Instructions: If you answered “NO” with respect to all of the determinations in this
section, then stop your deliberations, cross out Sections III, IV, V, and VI of this form, and
proceed to Section VII. Each juror should carefully read the statement in Section VII and sign in
the appropriate place if the statement accurately reflects the manner in which he or she reached
his or her decision. You should then advise the court that you have reached a decision.
If you answered “YES” with respect to one (1) or more of the determinations in this
Section II, proceed to Section III, which follows.
III.

STATUTORY AGGRAVATING FACTORS
Instructions: For each of the following, answer “YES” or “NO.”
1.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that the death, or injuries resulting in the death, of Victor Castro-Rodriguez
occurred during the commission of Victor Castro-Rodriguez’s murder by Defendant Coonce who
3
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 49 of 83

A-100

was a federal prisoner serving a term of life imprisonment at the time the murder occurred, as set
out in Instruction No. 7?
YES

___________

NO

___________

___________________________
Foreperson
2.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce has previously been convicted of two (2) or more state
or federal offenses, each of which was punishable by a term of imprisonment of more than one
(1) year, committed on different occasions, and involved the infliction, or attempted infliction, of
serious bodily injury upon another person, as set out in Instruction No. 7?
YES

___________

NO

___________

___________________________
Foreperson
3.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce committed the offense in an especially heinous, cruel,
or depraved manner in that it involved torture or serious physical abuse to Victor CastroRodriguez, as set out in Instruction No. 7?
YES

___________

NO

___________

___________________________
Foreperson

4
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 50 of 83

A-101

4.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce committed the offense after substantial planning and
premeditation to cause the death of Victor Castro-Rodriguez, as set out in Instruction No. 7?
YES

___________

NO

___________

___________________________
Foreperson
Instructions: If you answered “NO” with respect to all of the statutory aggravating
factors in this Section III, then stop your deliberations, cross out Sections IV, V, and VI of this
form and proceed to Section VII of this form. Each juror should then carefully read the
statement in Section VII and sign in the appropriate place if the statement accurately reflects the
manner in which he or she reached his or her decision. You should then advise the court that you
have reached a decision.
If you found the requisite mental state in Section II and answered “YES” with respect to
at least one (1) or more of the statutory aggravating factors in this Section III, proceed to Section
IV, which follows.
IV.

NON-STATUTORY AGGRAVATING FACTORS
Instructions: For each of the following, answer “YES” or “NO.”
1.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce presents a future danger to others based upon the
probability that Defendant Coonce will commit criminal acts of violence that would constitute a
continuing threat to the lives and safety of others, in that Defendant Coonce has engaged in a
continuing pattern of violent conduct, has threatened others with violence, has demonstrated lack

5
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 51 of 83

A-102

of remorse, and/or has demonstrated a low rehabilitative potential, as set out in Instruction No.
8?
YES

___________

NO

___________

___________________________
Foreperson
2.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce committed conduct suggesting a grave indifference to
human life, as set out in Instruction No. 8?
YES

___________

NO

___________

___________________________
Foreperson
3.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce has shown lack of remorse in the death of Victor
Castro-Rodriguez, as set out in Instruction No. 8?
YES

___________

NO

___________

___________________________
Foreperson

4.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce acted to obstruct justice or to retaliate against Victor
Castro-Rodriguez because of Victor Castro-Rodriguez’s assistance to prison officials and guards

6
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 52 of 83

A-103

in reporting inmate misconduct and in physical altercations between inmates and prison guards,
as set out in Instruction No. 8?
YES

___________

NO

__________

___________________________
Foreperson
Instructions: Regardless of whether you answered “YES” or “NO” with respect to the
non-statutory aggravating factors in this Section IV, proceed to Section V, which follows.
V.

MITIGATING FACTORS
Instructions: For each of the following mitigating factors, indicate in the space provided

the number of jurors who have found the existence of that mitigating factor to be proven by the
preponderance of the evidence.
A finding with respect to a mitigating factor may be made by one (1) or more of the
members of the jury, and any member of the jury who finds the existence of a mitigating factor
may consider such a factor established in considering whether or not a sentence of death shall be
imposed, regardless of the number of other jurors who agree that the factor has been established.
Further, any juror may also weigh a mitigating factor found by another juror, even if he or she
did not also find that factor to be mitigating.
1.

Defendant Coonce’s childhood was marked by chaos, abuse (both physical and

sexual), as well as neglect and abandonment.
Number of jurors who so find __________.
2.

Defendant Coonce’s mother, Linda Coonce, was addicted to illegal drugs and

alcohol.
Number of jurors who so find __________.
7
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 53 of 83

A-104

3.

Linda Coonce used alcohol and illegal drugs while pregnant with Defendant

Coonce.
Number of jurors who so find __________.
4.

Defendant Coonce’s Father, Wesley Coonce, Sr., was addicted to drugs.

Number of jurors who so find __________.
5.

Mental, emotional, and behavioral disorders are widespread on both sides of

Defendant Coonce’s family.
Number of jurors who so find __________.
6.

Defendant Coonce’s family has a pattern of broken relationships, abandonment,

and loss.
Number of jurors who so find __________.
7.

Defendant Coonce has suffered from mental and emotional impairments from a

very young age.
Number of jurors who so find __________.
8.

When Defendant Coonce was four (4) and six (6) years old, his mother admitted

him to the Hawthorn Center, an in-patient psychiatric hospital for children.
Number of jurors who so find __________.
9.

When Defendant Coonce was a patient at the Hawthorn Center, his mother failed

to cooperate with his treatment.
Number of jurors who so find __________.
10.

Defendant Coonce responded in a positive manner to the structure, treatment, and

affection he received in the Hawthorn Center.
Number of jurors who so find __________.

8
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 54 of 83

A-105

11.

Defendant Coonce has shown remorse for what he did in connection with this

offense.
Number of jurors who so find __________.
12.

Defendant Coonce has a loving and caring relationship with family members and

former foster family members, and those relationships would continue if Defendant Coonce was
sentenced to life imprisonment without the possibility of release.
Number of jurors who so find __________.
13.

Defendant Coonce suffers from Bipolar disorder, which was first diagnosed at age

seventeen (17).
Number of jurors who so find __________.
14.

The chaotic and abusive life that Defendant Coonce endured as a young child

increased his risk for emotional and mental disturbances in his adult life.
Number of jurors who so find __________.
15.

After Defendant Coonce’s release from prison in Texas, he tried to get help for

his mental illness.
Number of jurors who so find __________.
16.

When Defendant Coonce was twenty (20) years old, he sustained traumatic brain

injuries as a result of a car crash.
Number of jurors who so find __________.
17.

Inmates like Defendant Coonce, who have committed sexual offenses, know that

they are targeted by other inmates and that they are at risk of injury or death.
Number of jurors who so find __________.

9
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 55 of 83

A-106

18.

In 2007, while in federal prison, Defendant Coonce was brutally assaulted by

another inmate, resulting in an additional traumatic brain injury.
Number of jurors who so find __________.
19.

As a result of his traumatic brain injuries, Defendant Coonce’s full scale IQ

dropped from 105 to a present 71.
Number of jurors who so find __________.
20.

Defendant Coonce’s brain damage and low intelligence make him more

susceptible to the influence of others.
Number of jurors who so find __________.
21.

Defendant Coonce played a lesser role in the murder of Victor Castro-Rodriguez

than did his co-defendant, Defendant Hall.
Number of jurors who so find __________.
22.

Other inmates, equally culpable in the crime, will not be punished by death.

Number of jurors who so find __________.
23.

Defendant Coonce has attempted to kill himself many times, both in and out of

prison.
Number of jurors who so find __________.
24.

For at least twenty-four (24) months, Defendant Coonce has committed no

violations of disciplinary rules at any institution where he has been confined.
Number of jurors who so find __________.
25.

Successful management of Defendant Coonce’s medication is a major factor in

his good behavior in the last two (2) years.
Number of jurors who so find __________.

10
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 56 of 83

A-107

26.

There are other reasons that weigh against the imposition of a sentence of death

for Defendant Coonce.
Number of jurors who so find __________.
The following extra spaces are provided to write in additional mitigating factors, if any,
found by any one (1) or more jurors. If none, write “NONE” and line out the extra spaces with a
large “X.” If more space is needed, write “CONTINUED” and use the reverse side of this page.
__._____________________________________________________________________
_____________________________________________________________________________.
Number of jurors who so find __________.
__._____________________________________________________________________
_____________________________________________________________________________.
Number of jurors who so find __________.
__._____________________________________________________________________
_____________________________________________________________________________.
Number of jurors who so find __________.
__._____________________________________________________________________
_____________________________________________________________________________.
Number of jurors who so find __________.
Instructions: Proceed to Section VI and Section VII, which follow.
VI.

DETERMINATION
Based upon consideration of whether the aggravating factor or factors found to exist

sufficiently outweigh any mitigating factor or factors found to exist, or in the absence of any

11
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 57 of 83

A-108

mitigating factors, whether the aggravating factor or factors are sufficient to justify a sentence of
death, and whether death is therefore the appropriate sentence in this case:
A.

Death Sentence

We determine, by unanimous vote, that a sentence of death shall be imposed on
Defendant Coonce.
YES

___________

NO

___________

If you answer “YES,” the foreperson must sign here, and you must then proceed to
Section VII. If you answer “NO,” the foreperson must sign, and you must then proceed to
Section VI(B).
___________________________
Foreperson
Date: __________, 2014
B.

Sentence of Life in Prison Without the Possibility of Release

We determine, by unanimous vote, that a sentence of life imprisonment without the
possibility of release shall be imposed on Defendant Coonce.
YES

___________

NO

___________

If you answer “YES,” the foreperson must sign here, and then you must proceed to
Section VII.
___________________________
Foreperson
Date: __________, 2014
VII.

CERTIFICATION

12
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 58 of 83

A-109

By signing below, each juror certifies that consideration of the race, color, religious
beliefs, national origin, or sex of Defendant Coonce or Victor Castro-Rodgriguez was not
involved in reaching his or her individual decision, and that the individual juror would have
made the same recommendation regarding a sentence for the crime or crimes in question
regardless of the race, color, religious beliefs, national origin, or sex of Defendant Coonce or
Victor Castro-Rodgriguez.
______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________
FOREPERSON

Date: __________, 2014

13
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 59 of 83

A-110

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)

Plaintiff,
vs.
WESLEY PAUL COONCE, JR.,
Defendant.

Case No. 10-03029-CR-S-GAF

SPECIAL VERDICT FORM
COUNT II
I.

AGE OF DEFENDANT
Instructions: The Government and Defendant Coonce have stipulated — that is, they

have agreed — that Defendant Coonce was eighteen (18) years of age or older at the time of the
offense. You must therefore treat that fact as having been proved and proceed to Section II,
which follows.
II.

REQUISITE MENTAL STATE

Instructions: For each of the following, answer “YES” or “NO.”
1(A). Do you, the jury, unanimously find that the Government has established beyond a
reasonable doubt that Defendant Coonce intentionally killed the victim, Victor CastroRodriguez, by causing Victor Castro-Rodriguez to be bound and then causing Victor CastroRodriguez’s neck to be stepped on as Victor Castro-Rodriguez lay on the floor, which resulted in
Victor Castro-Rodriguez’s death, as set out in Instruction No. 6?
YES

___________

NO

___________

1
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 60 of 83

A-111

___________________________
Foreperson
1(B). Do you, the jury, unanimously find that the Government has established beyond a
reasonable doubt that Defendant Coonce intentionally inflicted serious bodily injury that resulted
in the death of the victim, Victor Castro-Rodriguez, by causing Victor Castro-Rodriguez to be
bound and then causing Victor Castro-Rodriguez’s neck to be stepped on as Victor CastroRodriguez lay on the floor, which resulted in Victor Castro-Rodriguez’s death, as set out in
Instruction No. 6?
YES

___________

NO

___________

___________________________
Foreperson
1(C). Do you, the jury, unanimously find that the Government has established beyond a
reasonable doubt that Defendant Coonce intentionally participated in an act, contemplating that
the life of a person, Victor Castro-Rodriguez, would be taken, or intending that lethal force
would be used in connection with a person, other than one (1) of the participants in the offense,
and the victim, Victor Castro-Rodriguez, died as a direct result of the act, by causing Victor
Castro-Rodriguez to be bound and then causing Victor Castro-Rodriguez’s neck to be stepped on
as Victor Castro-Rodriguez lay on the floor, which resulted in Victor Castro-Rodriguez’s death,
as set out in Instruction No. 6?
YES

___________

NO

___________

___________________________
Foreperson

2
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 61 of 83

A-112

1(D). Do you, the jury, unanimously find that the Government has established beyond a
reasonable doubt that Defendant Coonce intentionally and specifically engaged in an act of
violence, knowing that the act created a grave risk of death to a person, other than one (1) of the
participants in the offense, such that participation in the act constituted a reckless disregard for
human life and the victim, Victor Castro-Rodriguez, died as a direct result of the act, by causing
Victor Castro-Rodriguez to be bound and then causing Victor Castro-Rodriguez’s neck to be
stepped on as Victor Castro-Rodriguez lay on the floor, which resulted in Victor CastroRodriguez’s death, as set out in Instruction No. 6?
YES

___________

NO

___________

___________________________
Foreperson
Instructions: If you answered “NO” with respect to all of the determinations in this
section, then stop your deliberations, cross out Sections III, IV, V, and VI of this form, and
proceed to Section VII. Each juror should carefully read the statement in Section VII and sign in
the appropriate place if the statement accurately reflects the manner in which he or she reached
his or her decision. You should then advise the court that you have reached a decision.
If you answered “YES” with respect to one (1) or more of the determinations in this
Section II, proceed to Section III, which follows.
III.

STATUTORY AGGRAVATING FACTORS
Instructions: For each of the following, answer “YES” or “NO.”
1.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that the death, or injuries resulting in the death, of Victor Castro-Rodriguez
occurred during the commission of Victor Castro-Rodriguez’s murder by Defendant Coonce,
3
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 62 of 83

A-113

who was a federal prisoner serving a term of life imprisonment at the time the murder occurred,
as set out in Instruction No. 7?
YES

___________

NO

___________

___________________________
Foreperson
2.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce has previously been convicted of two (2) or more state
or federal offenses, each of which was punishable by a term of imprisonment of more than one
(1) year, committed on different occasions, and involved the infliction, or attempted infliction, of
serious bodily injury upon another person, as set out in Instruction No. 7?
YES

___________

NO

___________

___________________________
Foreperson
3.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce committed the offense in an especially heinous, cruel,
or depraved manner in that it involved torture or serious physical abuse to Victor CastroRodriguez, as set out in Instruction No. 7?
YES

___________

NO

___________

___________________________
Foreperson

4
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 63 of 83

A-114

4.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce committed the offense after substantial planning and
premeditation to cause the death of Victor Castro-Rodriguez, as set out in Instruction No. 7?
YES

___________

NO

___________

___________________________
Foreperson
Instructions: If you answered “NO” with respect to all of the statutory aggravating
factors in this Section III, then stop your deliberations, cross out Sections IV, V, and VI of this
form and proceed to Section VII of this form. Each juror should then carefully read the
statement in Section VII and sign in the appropriate place if the statement accurately reflects the
manner in which he or she reached his or her decision. You should then advise the court that you
have reached a decision.
If you found the requisite mental state in Section II and answered “YES” with respect to
at least one (1) or more of the statutory aggravating factors in this Section III, proceed to Section
IV, which follows.
IV.

NON-STATUTORY AGGRAVATING FACTORS
Instructions: For each of the following, answer “YES” or “NO.”
1.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce presents a future danger to others based upon the
probability that Defendant Coonce will commit criminal acts of violence that would constitute a
continuing threat to the lives and safety of others, in that Defendant Coonce has engaged in a
continuing pattern of violent conduct, has threatened others with violence, has demonstrated lack

5
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 64 of 83

A-115

of remorse, and/or has demonstrated a low rehabilitative potential, as set out in Instruction No.
8?
YES

___________

NO

___________

___________________________
Foreperson
2.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce committed conduct suggesting a grave indifference to
human life, as set out in Instruction No. 8?
YES

___________

NO

___________

___________________________
Foreperson
3.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce has shown lack of remorse in the death of Victor
Castro-Rodriguez, as set out in Instruction No. 8?
YES

___________

NO

___________

___________________________
Foreperson
4.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Coonce acted to obstruct justice or to retaliate against Victor
Castro-Rodriguez because of Victor Castro-Rodriguez’s assistance to prison officials and guards

6
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 65 of 83

A-116

in reporting inmate misconduct and in physical altercations between inmates and prison guards,
as set out in Instruction No. 8?
YES

___________

NO

__________

___________________________
Foreperson
Instructions: Regardless of whether you answered “YES” or “NO” with respect to the
non-statutory aggravating factors in this Section IV, proceed to Section V, which follows.
V.

MITIGATING FACTORS
Instructions: For each of the following mitigating factors, indicate, in the space

provided, the number of jurors who have found the existence of that mitigating factor to be
proven by the preponderance of the evidence.
A finding with respect to a mitigating factor may be made by one (1) or more of the
members of the jury, and any member of the jury who finds the existence of a mitigating factor
may consider such a factor established in considering whether or not a sentence of death shall be
imposed, regardless of the number of other jurors who agree that the factor has been established.
Further, any juror may also weigh a mitigating factor found by another juror, even if he or she
did not also find that factor to be mitigating.
1.

Defendant Coonce’s childhood was marked by chaos, abuse (both physical and

sexual), as well as neglect and abandonment.
Number of jurors who so find __________.
2.

Defendant Coonce’s mother, Linda Coonce, was addicted to illegal drugs and

alcohol.
Number of jurors who so find __________.
7
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 66 of 83

A-117

3.

Linda Coonce used alcohol and illegal drugs while pregnant with Defendant

Coonce.
Number of jurors who so find __________.
4.

Defendant Coonce’s Father, Wesley Coonce, Sr., was addicted to drugs.

Number of jurors who so find __________.
5.

Mental, emotional, and behavioral disorders are widespread on both sides of

Defendant Coonce’s family.
Number of jurors who so find __________.
6.

Defendant Coonce’s family has a pattern of broken relationships, abandonment,

and loss.
Number of jurors who so find __________.
7.

Defendant Coonce has suffered from mental and emotional impairments from a

very young age.
Number of jurors who so find __________.
8.

When Defendant Coonce was four (4) and six (6) years old, his mother admitted

him to the Hawthorn Center, an in-patient psychiatric hospital for children.
Number of jurors who so find __________.
9.

When Defendant Coonce was a patient at the Hawthorn Center, his mother failed

to cooperate with his treatment.
Number of jurors who so find __________.
10.

Defendant Coonce responded in a positive manner to the structure, treatment, and

affection he received in the Hawthorn Center.
Number of jurors who so find __________.

8
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 67 of 83

A-118

11.

Defendant Coonce has shown remorse for what he did in connection with this

offense.
Number of jurors who so find __________.
12.

Defendant Coonce has a loving and caring relationship with family members and

former foster family members, and those relationships would continue if Defendant Coonce was
sentenced to life imprisonment without the possibility of release.
Number of jurors who so find __________.
13.

Defendant Coonce suffers from Bipolar disorder, which was first diagnosed at age

seventeen (17).
Number of jurors who so find __________.
14.

The chaotic and abusive life that Defendant Coonce endured as a young child

increased his risk for emotional and mental disturbances in his adult life.
Number of jurors who so find __________.
15.

After Defendant Coonce’s release from prison in Texas, he tried to get help for

his mental illness.
Number of jurors who so find __________.
16.

When Defendant Coonce was twenty (20) years old, he sustained traumatic brain

injuries as a result of a car crash.
Number of jurors who so find __________.
17.

Inmates like Defendant Coonce, who have committed sexual offenses, know that

they are targeted by other inmates and that they are at risk of injury or death.
Number of jurors who so find __________.

9
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 68 of 83

A-119

18.

In 2007, while in federal prison, Defendant Coonce was brutally assaulted by

another inmate, resulting in an additional traumatic brain injury.
Number of jurors who so find __________.
19.

As a result of his traumatic brain injuries, Defendant Coonce’s full scale IQ

dropped from 105 to a present 71.
Number of jurors who so find __________.
20.

Defendant Coonce’s brain damage and low intelligence make him more

susceptible to the influence of others.
Number of jurors who so find __________.
21.

Defendant Coonce played a lesser role in the murder of Victor Castro-Rodriguez

than did his co-defendant, Defendant Hall.
Number of jurors who so find __________.
22.

Other inmates, equally culpable in the crime, will not be punished by death.

Number of jurors who so find __________.
23.

Defendant Coonce has attempted to kill himself many times, both in and out of

prison.
Number of jurors who so find __________.
24.

For at least twenty-four (24) months, Defendant Coonce has committed no

violations of disciplinary rules at any institution where he has been confined.
Number of jurors who so find __________.
25.

Successful management of Defendant Coonce’s medication is a major factor in

his good behavior in the last two (2) years.
Number of jurors who so find __________.

10
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 69 of 83

A-120

26.

There are other reasons that weigh against the imposition of a sentence of death

for Defendant Coonce.
Number of jurors who so find __________.
The following extra spaces are provided to write in additional mitigating factors, if any,
found by any one (1) or more jurors. If none, write “NONE” and line out the extra spaces with a
large “X.” If more space is needed, write “CONTINUED” and use the reverse side of this page.
__._____________________________________________________________________
_____________________________________________________________________________.
Number of jurors who so find __________.
__._____________________________________________________________________
_____________________________________________________________________________.
Number of jurors who so find __________.
__._____________________________________________________________________
_____________________________________________________________________________.
Number of jurors who so find __________.
__._____________________________________________________________________
_____________________________________________________________________________.
Number of jurors who so find __________.
Instructions: Proceed to Section VI and Section VII, which follow.
VI.

DETERMINATION
Based upon consideration of whether the aggravating factor or factors found to exist

sufficiently outweigh any mitigating factor or factors found to exist, or in the absence of any

11
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 70 of 83

A-121

mitigating factors, whether the aggravating factor or factors are sufficient to justify a sentence of
death, and whether death is therefore the appropriate sentence in this case:
A.

Death Sentence

We determine, by unanimous vote, that a sentence of death shall be imposed on
Defendant Coonce.
YES

___________

NO

___________

If you answer “YES,” the foreperson must sign here, and you must then proceed to
Section VII. If you answer “NO,” the foreperson must sign, and you must then proceed to
Section VI(B).
___________________________
Foreperson
Date: __________, 2014
B.

Sentence of Life in Prison Without the Possibility of Release

We determine, by unanimous vote, that a sentence of life imprisonment without the
possibility of release shall be imposed on Defendant Coonce.
YES

___________

NO

___________

If you answer “YES,” the foreperson must sign here, and then you must proceed to
Section VII.
___________________________
Foreperson
Date: __________, 2014
VII.

CERTIFICATION

12
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 71 of 83

A-122

By signing below, each juror certifies that consideration of the race, color, religious
beliefs, national origin, or sex of Defendant Coonce or Victor Castro-Rodriguez was not
involved in reaching his or her individual decision, and that the individual juror would have
made the same recommendation regarding a sentence for the crime or crimes in question
regardless of the race, color, religious beliefs, national origin, or sex of Defendant Coonce or
Victor Castro-Rodriguez.
______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________
FOREPERSON

Date: __________, 2014

13
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 72 of 83

A-123

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)

Plaintiff,
vs.
CHARLES MICHAEL HALL,
Defendant.

Case No. 10-03029-CR-S-GAF

SPECIAL VERDICT FORM
COUNT I
I.

AGE OF DEFENDANT
Instructions: The Government and Defendant Hall have stipulated — that is, they have

agreed — that Defendant Hall was eighteen (18) years of age or older at the time of the offense.
You must therefore treat that fact as having been proved and proceed to Section II, which
follows.
II.

REQUISITE MENTAL STATE
Instructions: For each of the following, answer “YES” or “NO.”
1(A). Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall intentionally killed the victim, Victor Castro-Rodriguez, by
causing Victor Castro-Rodriguez to be bound and then causing Victor Castro-Rodriguez’s neck
to be stepped on as Victor Castro-Rodriguez lay on the floor, which resulted in Victor CastroRodriguez’s death, as set out in Instruction No. 13?
YES

___________

NO

___________

1
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 73 of 83

A-124

___________________________
Foreperson
1(B). Do you, the jury, unanimously find that the Government has established beyond a
reasonable doubt that Defendant Hall intentionally inflicted serious bodily injury that resulted in
the death of the victim, Victor Castro-Rodriguez, by causing Victor Castro-Rodriguez to be
bound and then causing Victor Castro-Rodriguez’s neck to be stepped on as Victor CastroRodriguez lay on the floor, which resulted in Victor Castro-Rodriguez’s death, as set out in
Instruction No. 13?
YES

___________

NO

___________

___________________________
Foreperson
1(C). Do you, the jury, unanimously find that the Government has established beyond a
reasonable doubt that Defendant Hall intentionally participated in an act, contemplating that the
life of a person, Victor Castro-Rodriguez, would be taken, or intending that lethal force would be
used in connection with a person, other than one (1) of the participants in the offense, and the
victim, Victor Castro-Rodriguez, died as a direct result of the act, by causing Victor CastroRodriguez to be bound and then causing Victor Castro-Rodriguez’s neck to be stepped on as
Victor Castro-Rodriguez lay on the floor, which resulted in Victor Castro-Rodriguez’s death, as
set out in Instruction No. 13?
YES

___________

NO

___________

___________________________
Foreperson

2
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 74 of 83

A-125

1(D). Do you, the jury, unanimously find that the Government has established beyond a
reasonable doubt that Defendant Hall intentionally and specifically engaged in an act of violence,
knowing that the act created a grave risk of death to a person, other than one (1) of the
participants in the offense, such that participation in the act constituted a reckless disregard for
human life and the victim, Victor Castro-Rodriguez, died as a direct result of the act, by causing
Victor Castro-Rodriguez to be bound and then causing Victor Castro-Rodriguez’s neck to be
stepped on as Victor Castro-Rodriguez lay on the floor, which resulted in Victor CastroRodriguez’s death, as set out in Instruction No. 13?
YES

___________

NO

___________

___________________________
Foreperson
Instructions: If you answered “NO” with respect to all of the determinations in this
section, then stop your deliberations, cross out Sections III, IV, V, and VI of this form, and
proceed to Section VII. Each juror should carefully read the statement in Section VII and sign in
the appropriate place if the statement accurately reflects the manner in which he or she reached
his or her decision. You should then advise the court that you have reached a decision.
If you answered “YES” with respect to one (1) or more of the determinations in this
Section II, proceed to Section III, which follows.
III.

STATUTORY AGGRAVATING FACTORS
Instructions: For each of the following, answer “YES” or “NO.”
1.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall committed the offense in an especially heinous, cruel, or

3
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 75 of 83

A-126

depraved manner in that it involved torture or serious physical abuse to Victor Castro-Rodriguez,
as set out in Instruction No. 14?
YES

___________

NO

___________

___________________________
Foreperson
2.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall committed the offense after substantial planning and
premeditation to cause the death of Victor Castro-Rodriguez, as set out in Instruction No. 14?
YES

___________

NO

___________

___________________________
Foreperson
Instructions: If you answered “NO” with respect to all of the statutory aggravating
factors in this Section III, then stop your deliberations, cross out Sections IV, V, and VI of this
form and proceed to Section VII of this form. Each juror should then carefully read the
statement in Section VII and sign in the appropriate place if the statement accurately reflects the
manner in which he or she reached his or her decision. You should then advise the court that you
have reached a decision.
If you found the requisite mental state in Section II and answered “YES” with respect to
at least one (1) or more of the statutory aggravating factors in this Section III, proceed to Section
IV, which follows.
IV.

NON-STATUTORY AGGRAVATING FACTORS
Instructions: For each of the following, answer “YES” or “NO.”

4
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 76 of 83

A-127

1.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall presents a future danger to others based upon the
probability that Defendant Hall will commit criminal acts of violence that would constitute a
continuing threat to the lives and safety of others, in that Defendant Hall has engaged in a
continuing pattern of violent conduct, has threatened others with violence, has demonstrated lack
of remorse, and/or has demonstrated a low rehabilitative potential, as set out in Instruction No.
15?
YES

___________

NO

___________

___________________________
Foreperson
2.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall committed conduct suggesting a grave indifference to
human life, as set out in Instruction No. 15?
YES

___________

NO

___________

___________________________
Foreperson
3.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall has shown lack of remorse in the death of Victor CastroRodriguez, as set out in Instruction No. 15?
YES

___________

NO

___________

___________________________
Foreperson
5
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 77 of 83

A-128

4.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall acted to obstruct justice or to retaliate against Victor
Castro-Rodriguez because of Victor Castro-Rodriguez’s assistance to prison officials and guards
in reporting inmate misconduct and in physical altercations between inmates and prison guards,
as set out in Instruction No. 15?
YES

___________

NO

__________

___________________________
Foreperson
Instructions: Regardless of whether you answered “YES” or “NO” with respect to the
non-statutory aggravating factors in this Section IV, proceed to Section V, which follows.
V.

MITIGATING FACTORS
Instructions: For each of the following mitigating factors, indicate in the space provided

the number of jurors who have found the existence of that mitigating factor to be proven by the
preponderance of the evidence.
A finding with respect to a mitigating factor may be made by one (1) or more of the
members of the jury, and any member of the jury who finds the existence of a mitigating factor
may consider such a factor established in considering whether or not a sentence of death shall be
imposed, regardless of the number of other jurors who agree that the factor has been established.
Further, any juror may also weigh a mitigating factor found by another juror, even if he or she
did not also find that factor to be mitigating.
1.

Defendant Hall has accepted responsibility for what he did in connection with this

offense.

6
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 78 of 83

A-129

Number of jurors who so find __________.
2.

Defendant Hall has shown remorse for what he did in connection with this

offense.
Number of jurors who so find __________.
3.

Defendant Hall has had no institutional rules or disciplinary violations since

January 26, 2010, the date of this offense.
Number of jurors who so find __________.
4.

Defendant Hall has, for many years, suffered from the mental illness of Bipolar

disorder.
Number of jurors who so find __________.
5.

Defendant Hall has, since 1993, suffered with the serious illness of Crohn’s

disease.
Number of jurors who so find __________.
6.

On September 2, 1994, Defendant Hall suffered a significant brain injury due to a

motorcycle accident.
Number of jurors who so find __________.
7.

At the time of this offense, Defendant Hall’s capacity to appreciate the

wrongfulness of his conduct or to conform his conduct to the requirements of the law was
significantly impaired.
Number of jurors who so find __________.
8.

Defendant Hall committed this offense under severe mental or emotional

disturbance.
Number of jurors who so find __________.

7
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 79 of 83

A-130

9.

Defendant Hall has a loving and caring relationship with his mother, Dorothy

Hall, his father, Charles V. Hall, and his sister, Michelle Bories, and those relationships would
continue if Defendant Hall was sentenced to life imprisonment without the possibility of release.
Number of jurors who so find __________.
10.

Defendant Hall has demonstrated the ability to help others, such as when he

patiently taught his disabled nephew how to crawl.
Number of jurors who so find __________.
11.

Defendant Hall suffers from low self-esteem, as evidenced by him telling untruths

to make himself sound more important to others.
Number of jurors who so find __________.
12.

Defendant Hall has strong talents in sketch art, poetry, and music.

Number of jurors who so find __________.
13.

While incarcerated, Defendant Hall has been the victim of serious assaults.

Number of jurors who so find __________.
14.

Prior to January 26, 2010, the date of the offense, Defendant Hall gave warnings

to prison officials about homicidal thoughts he was having, but those warnings were not heeded
by prison officials.
Number of jurors who so find __________.
15.

Bureau of Prisons staff failed to properly monitor Defendant Hall by not placing

him in seclusion, restraints, or twenty-four (24) hour personal observation on January 26, 2010.
Number of jurors who so find __________.
16.

Dangers in prison, particularly the need to retaliate for conduct by Victor Castro-

Rodriguez against Defendant Hall, explain in part why this offense happened.

8
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 80 of 83

A-131

Number of jurors who so find __________.
17.

There are other reasons that weigh against the imposition of a sentence of death

for Defendant Hall.
Number of jurors who so find __________.
The following extra spaces are provided to write in additional mitigating factors, if any,
found by any one (1) or more jurors. If none, write “NONE” and line out the extra spaces with a
large “X.” If more space is needed, write “CONTINUED” and use the reverse side of this page.
__._____________________________________________________________________
_____________________________________________________________________________.
Number of jurors who so find __________.
__._____________________________________________________________________
_____________________________________________________________________________.
Number of jurors who so find __________.
__._____________________________________________________________________
_____________________________________________________________________________.
Number of jurors who so find __________.
__._____________________________________________________________________
_____________________________________________________________________________.
Number of jurors who so find __________.
Instructions: Proceed to Section VI and Section VII, which follow.
VI.

DETERMINATION
Based upon consideration of whether the aggravating factor or factors found to exist

sufficiently outweigh any mitigating factor or factors found to exist, or in the absence of any

9
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 81 of 83

A-132

mitigating factors, whether the aggravating factor or factors are sufficient to justify a sentence of
death, and whether death is therefore the appropriate sentence in this case:
A.

Death Sentence

We determine, by unanimous vote, that a sentence of death shall be imposed on
Defendant Hall.
YES

___________

NO

___________

If you answer “YES,” the foreperson must sign here, and you must then proceed to
Section VII. If you answer “NO,” the foreperson must sign, and you must then proceed to
Section VI(B).
___________________________
Foreperson
Date: __________, 2014
B.

Sentence of Life in Prison Without the Possibility of Release

We determine, by unanimous vote, that a sentence of life imprisonment without the
possibility of release shall be imposed on Defendant Hall.
YES

___________

NO

___________

If you answer “YES,” the foreperson must sign here, and then you must proceed to
Section VII.
___________________________
Foreperson
Date: __________, 2014
VII.

CERTIFICATION

10
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 82 of 83

A-133

By signing below, each juror certifies that consideration of the race, color, religious
beliefs, national origin, or sex of Defendant Hall or Victor Castro-Rodriguez was not involved in
reaching his or her individual decision, and that the individual juror would have made the same
recommendation regarding a sentence for the crime or crimes in question regardless of the race,
color, religious beliefs, national origin, or sex of Defendant Hall or Victor Castro-Rodriguez.
______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________

______________________________
FOREPERSON

Date: __________, 2014

11
Case 6:10-cr-03029-GAF Document 807 Filed 05/30/14 Page 83 of 83

A-134

APPENDIX 10

A-135

INSTRUCTION NO. A
Members of the jury, you have unanimously found the defendant Charles
Michael Hall guilty of the offense of murder in a Federal prison as charged in the
indictment. You must now consider whether the defendant should be sentenced to
death or whether the defendant should be sentenced to life imprisonment without
the possibility of release.
This decision is left exclusively to you, the jury. If you determine that the
defendant should be sentenced to death, or to life imprisonment without possibility
of release, the court is required to impose that sentence.
Before you may consider whether to impose a sentence of death, you must
make each of the following three findings unanimously and beyond a reasonable
doubt:
First, you must find that the defendant was at least 18 years of age at the
time he committed the offense; and
Second, you must find unanimously and beyond a reasonable doubt that
defendant intentionally killed Victor Castro-Rodriguez, or intentionally inflicted
serious bodily injury that resulted in the death of Victor Castro-Rodriguez; and
Third, you must find unanimously and beyond a reasonable doubt that the
government has proved the existence of at least one statutory aggravating factor. I
will define the term Aaggravating factors@ for you shortly.
1
Case 6:10-cr-03029-GAF Document 212-1 Filed 11/28/12 Page 1 of 5

A-136

If, after fair and impartial consideration of all the evidence in this case, any
one of you does not make these three findings beyond a reasonable doubt, your
deliberations will be over. If you do unanimously make these three findings
beyond a reasonable doubt, you will then proceed to determine whether you
unanimously find that the government has proved the existence of any nonstatutory aggravating factors beyond a reasonable doubt, and whether any of you
find that the defendant has proved any mitigating factors by a preponderance of the
evidence. You must then engage in a weighing process. You must decide whether
the proved aggravating factors outweigh the proved mitigating factors sufficiently
to justify the death sentence. If you do not find any mitigating factors, you still
must decide whether the aggravating factors are sufficient to justify imposition of a
death sentence. If you determine as a result of this weighing process that the
factors do not justify a death sentence, such a sentence may not be imposed, and a
sentence of life imprisonment without release is to be imposed. If you determine
that the factors do justify a death sentence, that sentence may be imposed.
Again, whether or not the circumstances in this case justify a sentence of
death is a decision that is entirely yours. You should not take anything I may say
or do during this phase of the trial as indicating what I think of the evidence or
what I think your verdict should be.
Two terms that you have already heard and will hear throughout this phase
2
Case 6:10-cr-03029-GAF Document 212-1 Filed 11/28/12 Page 2 of 5

A-137

of the case are "aggravating factors" and "mitigating factors." These factors have
to do with the circumstances of the crime or the personal traits, character or
background of the defendant and the effect of the offense on the victim and the
victim=s family.
The word "aggravate" means "to make worse or more offensive" or "to
intensify." The word "mitigate" means "to make less severe" or "to moderate." An
aggravating factor, then is a fact or circumstance which would tend to support
imposition of the death penalty. A mitigating factor is any aspect of a defendant's
character or background, any circumstance of the offense, or any other relevant
fact or circumstance which might indicate that the defendant should not be
sentenced to death.
In the death penalty statute, a number of aggravating factors are listed.
These are called "statutory aggravating factors." As I instructed you earlier, before
you may consider imposition of the death penalty, you must find that the
government proved at least one of these aggravating factors specifically listed in
the death penalty statute, and your finding must be unanimous and beyond a
reasonable doubt. In addition to statutory aggravating factors, there may also be
aggravating factors not specifically set out in the death penalty statute. Again,
your finding that any non statutory aggravating factor exists must be unanimous
and beyond a reasonable doubt.
3
Case 6:10-cr-03029-GAF Document 212-1 Filed 11/28/12 Page 3 of 5

A-138

The defendant has the burden of proving any mitigating factors. However,
there is a different standard of proof as to mitigating factors. You need not be
convinced beyond a reasonable doubt about the existence of a mitigating factor;
you need only be convinced that it is more likely true than not true, in order to find
that it exists. A unanimous finding is not required. Any one of you may find the
existence of a mitigating factor regardless of the number of other jurors who may
agree.
If you have unanimously found that at least one statutory aggravating factor
exists, you then must weigh the aggravating factors you have all found to exist
against any mitigating factors you have individually found to exist by a
preponderance of the evidence to determine the appropriate sentence. Any juror
may also weigh a mitigating factor found by another juror, even if he or she did not
also find that factor to be mitigating. I will give you detailed instructions regarding
the process of weighing aggravating and mitigating factors before you begin your
deliberations. However, I instruct you now that you must not simply count the
number of aggravating and mitigating factors and reach a decision based on which
number is greater, you must consider the weight and value of each factor. In
addition, no matter what your decisions are regarding aggravating and mitigating
factors, you are never required to return a sentence of death.

4
Case 6:10-cr-03029-GAF Document 212-1 Filed 11/28/12 Page 4 of 5

A-139

Source, Eighth Circuit Model Death Penalty Jury Instruction 12.01, as modified,
paragraph 7 wording modified in keeping with similar language from Tenth Circuit
Instruction 3.02, replacing Amust@ with Amay@, paragraph 13 (final paragraph)
adding sentence that jury is never required to sentence to death per Jones v. United
States, 527 U.S. 373, 385 (1999); United States v. Haynes, 265 F.Supp.2d 915,
916-923 (W.D.Tenn. 2003); United States v. Tavaras, 2006 WL 1770328, *6-7
(E.D.N.Y. 2006).

5
Case 6:10-cr-03029-GAF Document 212-1 Filed 11/28/12 Page 5 of 5

A-140

APPENDIX 11

A-141

INSTRUCTION NO. B
If you find unanimously and beyond a reasonable doubt that defendant was
eighteen years of age or older when he committed the offense; that he acted with
the requisite intent; and that the government proved the existence of at least one
statutory aggravating factor; and after you then determine whether the government
proved the existence of the nonstatutory aggravating factors submitted to you, and
whether the defendant proved the existence of any mitigating factors, you will then
engage in a weighing process. In determining the appropriate sentence, all of you
must weigh the aggravating factor or factors that you unanimously found to exist B
whether statutory or nonstatutory B and each of you must weigh any mitigating
factors that you individually found to exist, and may weigh any mitigating factors
that another of your fellow jurors found to exist. In engaging in the weighing
process, you must avoid any influence of passion, prejudice, or undue sympathy.
Your deliberations should be based upon the evidence you have seen and heard and
the law on which I have instructed you.
Again, whether or not the circumstances in this case justify a sentence of
death is a decision that the law leaves entirely to you.
The process of weighing aggravating and mitigating factors against each
other in order to determine the proper punishment is not a mechanical process. In
other words, you should not simply count the number of aggravating and
1
Case 6:10-cr-03029-GAF Document 212-2 Filed 11/28/12 Page 1 of 3

A-142

mitigating factors and reach a decision based on which number is greater; you
should consider the weight and value of each factor.
The law contemplates that different factors may be given different weights
or values by different jurors.

Thus, you may find that one mitigating factor

outweighs all aggravating factors combined, or that the aggravating factors proved
do not, standing alone, justify imposition of a sentence of death. If one or more of
you so find, you must return a sentence of life in prison without possibility of
release. Similarly, you may unanimously find that a particular aggravating factor
sufficiently outweighs all mitigating factors combined to justify a sentence of
death. You are to decide what weight or value is to be given to a particular
aggravating or mitigating factor in your decision-making process.
If you unanimously determine that the aggravating factor or factors found to
exist sufficiently outweigh any mitigating factor or factors found to exist to justify
a sentence of death, or in the absence of any mitigating factors, that the
aggravating factor or factors are alone sufficient to justify a sentence of death, only
then can you record your determination that death is justified in Section VI of the
Special Verdict Form. Please remember, however, that whatever findings you
make with respect to the aggravating and mitigating factors, you are never required
to impose a sentence of death.
If you do not unanimously determine that the aggravating factor or factors
2
Case 6:10-cr-03029-GAF Document 212-2 Filed 11/28/12 Page 2 of 3

A-143

found to exist sufficiently outweigh any mitigating factor or factors found to exist
to justify a sentence of death, or in the absence of any mitigating factors, that the
aggravating factor or factors are alone sufficient to justify a sentence of death, you
shall complete Section VI(a) of the Special Verdict Form, and you shall then
record your determination that defendant be sentenced to life imprisonment
without possibility of release in Section VI on page ___ of the Special Verdict
Form.

Source, Eighth Circuit Model Death Penalty Jury Instruction 12.11, as modified,
final two paragraphs modified in keeping with instructions given in United States
v. Gabrion, W.D.Mi. Case # 99-76 (See Doc. , Appendix DD, p. 28), and United
States v. Hargrove, D.Ks. Case # 03-20192 (See Doc. , Appendix I, p. 18-19); see
also Jones v. United States, 527 U.S. 373, 385 (1999); United States v. Haynes,
265 F.Supp.2d 915, 916-923 (W.D.Tenn. 2003); 21 U.S.C. 848(k); United States v.
Tavaras, 2006 WL 1770328, *6-7 (E.D.N.Y. 2006).

3
Case 6:10-cr-03029-GAF Document 212-2 Filed 11/28/12 Page 3 of 3

A-144

APPENDIX 12

A-145
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION
)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA,
Plaintiff,

vs.
CHARLES MICHAEL HALL,
Defendant.

Case No. 10-03029-CR-S-GAF

SPECIAL VERDICT FORM
COUNT I
I.

AGE OF DEFENDANT
Instructions: The Government and Defendant Hall have stipulated- that is, they have

agreed- that Defendant Hall was eighteen (18) years of age or older at the time of the offense.
You must therefore treat that fact as having been proved and proceed to Section II, which
follows.
II.

REQUISITE MENTAL STATE
Instructions: For each of the following, answer "YES" or "NO."
l(A).

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall intentionally killed the victim, Victor Castro-Rodriguez, by
causing Victor Castro-Rodriguez to be bound and then causing Victor Castro-Rodriguez's neck
to be stepped on as Victor Castro-Rodriguez lay on the floor, which resulted in Victor CastroRodriguez's death, as set out in Instruction No. 13?
YES

v

NO

1

Case 6:10-cr-03029-GAF Document 812 Filed 06/02/14 Page 1 of 11

A-146

Foreperson
1(B).

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall intentionally inflicted serious bodily injury that resulted in
the death of the victim, Victor Castro-Rodriguez, by causing Victor Castro-Rodriguez to be
bound and then causing Victor Castro-Rodriguez's neck to be stepped on as Victor CastroRodriguez lay on the floor, which resulted in Victor Castro-Rodriguez's death, as set out in
Instruction No. 13?
YES

v

NO
Foreperson
1(C). Do you, the jury, unanimously find that the Government has established beyond a
reasonable doubt that Defendant Hall intentionally participated in an act, contemplating that the
life of a person, Victor Castro-Rodriguez, would be taken, or intending that lethal force would be
used in connection with a person, other than one (1) of the participants in the offense, and the
victim, Victor Castro-Rodriguez, died as a direct result of the act, by causing Victor CastroRodriguez to be bound and then causing Victor Castro-Rodriguez's neck to be stepped on as
Victor Castro-Rodriguez lay on the floor, which resulted in Victor Castro-Rodriguez's death, as
set out in Instruction No. 13?
YES

NO

2

Case 6:10-cr-03029-GAF Document 812 Filed 06/02/14 Page 2 of 11

A-147
1(D). Do you, the jury, unanimously find that the Government has established beyond a
reasonable doubt that Defendant Hall intentionally and specifically engaged in an act of violence,
knowing that the act created a grave risk of death to a person, other than one (1) of the
participants in the offense, such that participation in the act constituted a reckless disregard for
human life and the victim, Victor Castro-Rodriguez, died as a direct result of the act, by causing
Victor Castro-Rodriguez to be bound and then causing Victor Castro-Rodriguez's neck to be
stepped on as Victor Castro-Rodriguez lay on the floor, which resulted in Victor CastroRodriguez's death, as set out in Instruction No. 13?
YES
NO

Foreperson
Instructions: If you answered "NO" with respect to all of the determinations in this
section, then stop your deliberations, cross out Sections III, IV, V, and VI of this form, and
proceed to Section VII. Each juror should carefully read the statement in Section VII and sign in
the appropriate place if the statement accurately reflects the manner in which he or she reached
his or her decision. You should then advise the court that you have reached a decision.
If you answered "YES" with respect to one (1) or more of the determinations in this
Section II, proceed to Section III, which follows.

III.

STATUTORY AGGRAVATING FACTORS
Instructions: For each of the following, answer "YES" or "NO."
1.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall committed the offense in an especially heinous, cruel, or

3

Case 6:10-cr-03029-GAF Document 812 Filed 06/02/14 Page 3 of 11

A-148
depraved manner in that it involved torture or serious physical abuse to Victor Castro-Rodriguez,
as set out in Instruction No. 14?
YES
NO
Foreperson
Do you, the jury, unanimously find that the Government has established beyond a

2.

reasonable doubt that Defendant Hall committed the offense after substantial planning and
premeditation to cause the death of Victor Castro-Rodriguez, as set out in Instruction No. 14?
YES
NO

Foreperson
Instructions: If you answered "NO" with respect to all of the statutory aggravating

factors in this Section Ill, then stop your deliberations, cross out Sections IV, V, and VI of this
form and proceed to Section VII of this form.

Each juror should then carefully read the

statement in Section VII and sign in the appropriate place if the statement accurately reflects the
manner in which he or she reached his or her decision. You should then advise the court that you
have reached a decision.
If you found the requisite mental state in Section II and answered "YES" with respect to
at least one (1) or more of the statutory aggravating factors in this Section III, proceed to Section
IV, which follows.

IV.

NON-STATUTORY AGGRAVATING FACTORS
Instructions: For each of the following, answer "YES" or "NO."

4

Case 6:10-cr-03029-GAF Document 812 Filed 06/02/14 Page 4 of 11

A-149
1.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall presents a future danger to others based upon the
probability that Defendant Hall will commit criminal acts of violence that would constitute a
continuing threat to the lives and safety of others, in that Defendant Hall has engaged in a
continuing pattern of violent conduct, has threatened others with violence, has demonstrated lack
of remorse, and/or has demonstrated a low rehabilitative potential, as set out in Instruction No.
15?
YES

./

NO

2.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall committed conduct suggesting a grave indifference to
human life, as set out in Instruction No. 15?
YES

NO
Foreperson
3.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall has shown lack of remorse in the death of Victor CastroRodriguez, as set out in Instruction No. 15?
YES

NO
Foreperson

5

Case 6:10-cr-03029-GAF Document 812 Filed 06/02/14 Page 5 of 11

A-150

4.

Do you, the jury, unanimously find that the Government has established beyond a

reasonable doubt that Defendant Hall acted to obstruct justice or to retaliate against Victor
Castro-Rodriguez because of Victor Castro-Rodriguez's assistance to prison officials and guards
in reporting inmate misconduct and in physical altercations between inmates and prison guards,
as set out in Instruction No. 15?
YES

NO
Foreperson

Instructions: Regardless of whether you answered "YES" or "NO" with respect to the
non-statutory aggravating factors in this Section IV, proceed to Section V, which follows.

V.

MITIGATING FACTORS
Instructions: For each of the following mitigating factors, indicate in the space provided

the number of jurors who have found the existence of that mitigating factor to be proven by the
preponderance of the evidence.
A finding with respect to a mitigating factor may be made by one (1) or more of the
members of the jury, and any member of the jury who finds the existence of a mitigating factor
may consider such a factor established in considering whether or not a sentence of death shall be
imposed, regardless of the number of other jurors who agree that the factor has been established.
Further, any juror may also weigh a mitigating factor found by another juror, even if he or she
did not also find that factor to be mitigating.
1.

Defendant Hall has accepted responsibility for what he did in connection with this

offense.

6

Case 6:10-cr-03029-GAF Document 812 Filed 06/02/14 Page 6 of 11

A-151
Number of jurors who so find
2.

0

-----

Defendant Hall has shown remorse for what he did in connection with this

offense.

0___

Number of jurors who so find _ _
3.

Defendant Hall has had no institutional rules or disciplinary violations since

January 26, 2010, the date ofthis offense.

0

Number of jurors who so find
4.

Defendant Hall has, for many years, suffered from the mental illness of Bipolar

disorder.

Q

Number of jurors who so find
5.

Defendant Hall has, since 1993, suffered with the serious illness of Crohn's

disease.
Number of jurors who so find - - - - 6.

On September 2, 1994, Defendant Hall suffered a significant brain injury due to a

motorcycle accident.

0

Number of jurors who so find
7.

At the time of this offense, Defendant Hall's capacity to appreciate the

wrongfulness of his conduct or to conform his conduct to the requirements of the law was
significantly impaired.

0___

Number of jurors who so find __
8.

Defendant Hall committed this offense under severe mental or emotional

disturbance.
Number of jurors who so find __0_·_ __

7

Case 6:10-cr-03029-GAF Document 812 Filed 06/02/14 Page 7 of 11

A-152
9.

Defendant Hall has a loving and caring relationship with his mother, Dorothy

Hall, his father, Charles V. Hall, and his sister, Michelle Bories, and those relationships would
continue if Defendant Hall was sentenced to life imprisonment without the possibility of release.
Number of jurors who so find -----'--10.

Defendant Hall has demonstrated the ability to help others, such as when he

patiently taught his disabled nephew how to crawl.
Number of jurors who so find
11.

0

Defendant Hall suffers from low self-esteem, as evidenced by him telling untruths

to make himself sound more important to others.
Number of jurors who so find
12.

Defendant Hall has strong talents in sketch art, poetry, and music.

Number of jurors who so find
13.

0
0

While incarcerated, Defendant Hall has been the victim of serious assaults.

0--=---

Number of jurors who so find __
14.

Prior to January 26, 2010, the date of the offense, Defendant Hall gave warnings

to prison officials about homicidal thoughts he was having, but those warnings were not heeded
by prison officials.
Number of jurors who so find
15.

0

Bureau of Prisons staff failed to properly monitor Defendant Hall by not placing

him in seclusion, restraints, or twenty-four (24) hour personal observation on January 26, 2010.
Number of jurors who so find __D_·_ __
16.

Dangers in prison, particularly the need to retaliate for conduct by Victor Castro-

Rodriguez against Defendant Hall, explain in part why this offense happened.

8

Case 6:10-cr-03029-GAF Document 812 Filed 06/02/14 Page 8 of 11

A-153

0___

Number of jurors who so find __
17.

There are other reasons that weigh against the imposition of a sentence of death

for Defendant Hall.
Number of jurors who so find

0

The following extra spaces are provided to write in additional mitigating factors, if any,
found by any one (1) or more jurors. If none, write "NONE" and line out the extra spaces with a
large "X." If more space is needed, write "CONTINUED" and use the reverse side ofthis page.

NOJJ E.

Number of jurors who so find _ _ _ __
Instructions: Proceed to Section VI and Section VII, which follow.

VI.

DETERMINATION
Based upon consideration of whether the aggravating factor or factors found to exist

sufficiently outweigh any mitigating factor or factors found to exist, or in the absence of any

9

Case 6:10-cr-03029-GAF Document 812 Filed 06/02/14 Page 9 of 11

A-154
mitigating factors, whether the aggravating factor or factors are sufficient to justify a sentence of
death, and whether death is therefore the appropriate sentence in this case:
A.

Death Sentence

We determine, by unanimous vote, that a sentence of death shall be imposed on
Defendant Hall.
YES
NO
If you answer "YES," the foreperson must sign here, and you must then proceed to
Section VII.
Section

:?Sc

If you answer "NO," the foreperson must sign, and you must then proceed to

Vl(<f::Y~
~@Hzy

Foreperson

Date:

r.,/1-- , 2014
B.

Sentence of Life in Prison Without the Possibility of Release

We determine, by unanimous vote, that a sentence of life imprisonment without the
possibility of release shall be imposed on Defendant Hall.
YES
NO
If you answer "YES," the foreperson must sign here, and then you must proceed to
Section VII.
Foreperson
Date:

VII.

, 2014
CERTIFICATION

10

Case 6:10-cr-03029-GAF Document 812 Filed 06/02/14 Page 10 of 11

A-155
By signing below, each juror certifies that consideration of the race, color, religious

beliefs, national origin, or sex of Defendant Hall or Victor Castro-Rodriguez was not involved in
reaching his or her individual decision, and that the individual juror would have made the same
recommendation regarding a sentence for the crime or crimes in question regardless of the race,

'7q%lpt~~
-~lMIKMb
Date:

_p,AM W:::sb

L/J- , 2014

11

Case 6:10-cr-03029-GAF Document 812 Filed 06/02/14 Page 11 of 11

A-156

APPENDIX 13

A-157
IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION

United States of America v. Wesley Paul Coonce, Jr.; Charles Michael Hall
10-03029-0 1/02-CR-S-GAF

JURY'S QUESTION OR REQUEST

The jury has the following question:

VJe, woul! 1\ke ct. d~i\'\\-LOV\ of 'obst'rtAcf ~\.t-sl\c.e' ctS u~eJ \vt
('e.-~ctv-J to V\on-s+~+t.Cto~y o..~'3sv-e-v0t; ... ~ fac.\ov= 1=t=-'t for 'Defe~tlcHtf­
H (\.

Date:
Time:

£,/7)
q :o&;"

fl{

41V1

By:

-~---=---/)4--=--'- + - - - -

Response from the Court:

~~

Gary A. F
I
Judge, U.S. Dis rtcrCourt

Case 6:10-cr-03029-GAF Document 809 Filed 06/02/14 Page 1 of 4

A-158
IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION

United States of America v. Wesley Paul Coonce, Jr.; Charles Michael Hall
10-03029-0 1102-CR-S-GAF

JURY'S QUESTION OR REQUEST

The jury has the following question:
t:fg-

;tk

~

9..

~ ~ ~ ~ ~e#;lk ~
~.&A.: cl.a<<4;(21A<·

Date:
Time: 'l--: 00

\> /111.

1f=

~ ~

By:_~~(?~--·~-

Response from the Court:

~tu~~.r ~~1.} ~ uticfut-

/!

a-..

Case 6:10-cr-03029-GAF Document 809 Filed 06/02/14 Page 2 of 4

A-159
IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION

United States of America v. Wesley Paul Coonce, Jr.; Charles Michael Hall
10-03029-01/02-CR-S-GAF

JURY'S QUESTION OR REQUEST

The jury has the following question:

Date:
Time:

&/L. /t"f
2: ;10

PM

Response from the Court:

~'--~

G~

-.,

Judge, U.S. District Court

Case 6:10-cr-03029-GAF Document 809 Filed 06/02/14 Page 3 of 4

---

A-160
IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION

United States of America v. Wesley Paul Coonce, Jr.; Charles Michael Hall
10-03029-01 /02-CR-S-GAF

JURY'S QUESTION OR REQUEST

The jury has the following question:

Y'e_OCJ~±: J.-1o\A;b: -k Z\( l2/ If r 4 2_) c)

Date:
Time:

By:k~

lJ/Oz.{tt.{
l S l-::>

Response from the Court:

C1Jf71.cJv

cL ·

Gary A. Fenner
Judge, U.S. District Court

Case 6:10-cr-03029-GAF Document 809 Filed 06/02/14 Page 4 of 4

A-161

APPENDIX 14

A-162

IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
SOUTHERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
WESLEY PAUL COONCE, JR.,
[DOB: 4-17-80]
and
CHARLES MICHAEL HALL,
[DOB: 4-6-71]
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

No. 10-03029-01/02-CR-S-GAF
COUNT ONE:
(COONCE AND HALL)
18 U.S.C. § 1111
NLT Life Imprisonment
NMT Death
NMT $250,000 Fine
Class A Felony
COUNT TWO:
(COONCE)
18 U.S.C. § 1118
NLT Life Imprisonment
NMT Death
NMT $250,000 Fine
Class A Felony
$100 Mandatory Special Assessment
Both Counts

SUPERSEDING INDICTMENT
THE GRAND JURY CHARGES THAT:
COUNT ONE
1. On or about January 26, 2010, in the Western District of Missouri, the defendants
WESLEY PAUL COONCE, JR. and CHARLES MICHAEL HALL, aiding and abetting
each other, on the premises of the United States Medical Center for Federal Prisoners in
Springfield, Missouri, a place within the special maritime and territorial jurisdiction of the
United States as defined in Title 18, United States Code, Section 7(3), did, with malice
aforethought, willfully, deliberately, maliciously and with premeditation, unlawfully kill Victor
Castro-Rodriguez, in violation of Title 18, United States Code, Sections 1111 and 2.

Case 6:10-cr-03029-GAF Document 59 Filed 07/19/11 Page 1 of 6

A-163

NOTICE OF SPECIAL FINDINGS - WESLEY PAUL COONCE, JR.
2. The Grand Jury incorporates by reference and re-alleges the allegations described in
paragraph 1 above and makes the following special findings.
A. Statutory Factors Enumerated under Title 18, U.S.C., Section 3591
i.

Defendant Coonce was 18 years of age or older at the time of the offense [18

U.S.C. § 3591(a)];
ii.

Defendant Coonce intentionally killed Victor Castro-Rodriguez [18 U.S.C. §

3591(a)(2)(A)];
iii.

Defendant Coonce intentionally inflicted serious bodily injury that resulted in the

death of Victor Castro-Rodriguez [18 U.S.C. § 3591(a)(2)(B)];
iv.

Defendant Coonce intentionally participated in an act, contemplating that the life

of a person would be taken or intending that lethal force would be used in connection with a
person, other than a participant in the offense, and Victor Castro-Rodriguez died as a direct
result of the act [18 U.S.C. § 3591(a)(2)(C)];
v.

Defendant Coonce intentionally and specifically engaged in an act of violence,

knowing that the act created a grave risk of death to a person, other than one of the participants
in the offense, such that participation in the act constituted a reckless disregard for human life
and Victor Castro-Rodriguez died as a direct result of the act [18 U.S.C. § 3591(a)(2)(D)].
B. Statutory Factors Enumerated under Title 18, U.S.C., Section 3592(c)
i.

The death or injuries resulting in death, occurred during the commission or

attempted commission, of an offense under 18 U.S.C., § 1118 (murder by prisoner serving life
term) [18 U.S.C. § 3592(c)(1)];

2

Case 6:10-cr-03029-GAF Document 59 Filed 07/19/11 Page 2 of 6

A-164
ii.

Defendant Coonce has previously been convicted of 2 or more Federal or State

offenses punishable by a term of imprisonment of more than 1 year, committed on different
occasions, involving the infliction of, or attempted infliction of, serious bodily injury or death
upon another person [18 U.S.C. § 3592(c)(4)];
iii.

Defendant Coonce committed the offense in an especially heinous, cruel, or

depraved manner in that it involved torture or serious physical abuse to Victor Castro-Rodriguez
[18 U.S.C. § 3592(c)(6)];
iv.

Defendant Coonce committed the offense after substantial planning and

premeditation to cause the death of Victor Castro-Rodriguez [18 U.S.C. § 3592(c)(9)];
v.

The victim, Victor Castro-Rodriguez, was particularly vulnerable due to infirmity,

in this case, mental illness [18 U.S.C. § 3592(c)(11)].
NOTICE OF SPECIAL FINDINGS - CHARLES MICHAEL HALL
3. The Grand Jury incorporates by reference and re-alleges the allegations described in
paragraph 1 above and makes the following special findings.
A. Statutory Factors Enumerated under Title 18, U.S.C., Section 3591
i.

Defendant Hall was 18 years of age or older at the time of the offense [18 U.S.C.

§ 3591(a)];
ii.

Defendant Hall intentionally killed Victor Castro-Rodriguez [18 U.S.C. §

3591(a)(2)(A)];
iii.

Defendant Hall intentionally inflicted serious bodily injury that resulted in the

death of Victor Castro-Rodriguez [18 U.S.C. § 3591(a)(2)(B)];
iv.

Defendant Hall intentionally participated in an act, contemplating that the life of a

3

Case 6:10-cr-03029-GAF Document 59 Filed 07/19/11 Page 3 of 6

A-165
person would be taken or intending that lethal force would be used in connection with a person,
other than a participant in the offense, and Victor Castro-Rodriguez died as a direct result of the
act [18 U.S.C. § 3591(a)(2)(C)];
v.

Defendant Hall intentionally and specifically engaged in an act of violence,

knowing that the act created a grave risk of death to a person, other than one of the participants
in the offense, such that participation in the act constituted a reckless disregard for human life
and Victor Castro-Rodriguez died as a direct result of the act [18 U.S.C. § 3591(a)(2)(D)].
B. Statutory Factors Enumerated under Title 18 U.S.C., Section 3592(c)
i.

The death or injury resulting in death, occurred during the commission or

attempted commission, of an offense under 18 U.S.C., § 1118 (murder by prisoner serving life
term) [18 U.S.C. § 3592(c)(1)];
ii.

Defendant Hall committed the offense in an especially heinous, cruel, or depraved

manner in that it involved torture or serious physical abuse to Victor Castro-Rodriguez [18
U.S.C. § 3592(c)(6)];
iii.

Defendant Hall committed the offense after substantial planning and

premeditation to cause the death of Victor Castro-Rodriguez [18 U.S.C. § 3592(c)(9)];
iv.

The victim, Victor Castro-Rodriguez, was particularly vulnerable due to infirmity,

in this case, mental illness [18 U.S.C. § 3592(c)(11)].
COUNT TWO
4. On or about January 26, 2010, in the Western District of Missouri, the defendant
WESLEY PAUL COONCE, JR., who was, at the time of this offense, a person confined to a
Federal corrections institution, namely the United States Medical Center for Federal Prisoners in

4

Case 6:10-cr-03029-GAF Document 59 Filed 07/19/11 Page 4 of 6

A-166
Springfield, Missouri, while serving under a sentence for a term of life imprisonment, did, with
malice aforethought, willfully, deliberately, maliciously and with premeditation, unlawfully kill
Victor Castro-Rodriguez, in violation of Title 18, United States Code, Sections 1118 and 2.
NOTICE OF SPECIAL FINDINGS - WESLEY PAUL COONCE, JR.
5. The Grand Jury incorporates by reference and re-alleges the allegations described in
paragraph 4 above and makes the following special findings.
A. Statutory Factors Enumerated under Title 18, U.S.C., Section 3591
i.

Defendant Coonce was 18 years of age or older at the time of the offense [18

U.S.C. § 3591(a)];
ii.

Defendant Coonce intentionally killed Victor Castro-Rodriguez [18 U.S.C. §

3591(a)(2)(A)];
iii.

Defendant Coonce intentionally inflicted serious bodily injury that resulted in the

death of Victor Castro-Rodriguez [18 U.S.C. § 3591(a)(2)(B)];
iv.

Defendant Coonce intentionally participated in an act, contemplating that the life

of a person would be taken or intending that lethal force would be used in connection with a
person, other than a participant in the offense, and Victor Castro-Rodriguez died as a direct
result of the act [18 U.S.C. § 3591(a)(2)(C)];
v.

Defendant Coonce intentionally and specifically engaged in an act of violence,

knowing that the act created a grave risk of death to a person, other than one of the participants
in the offense, such that participation in the act constituted a reckless disregard for human life
and Victor Castro-Rodriguez died as a direct result of the act [18 U.S.C. § 3591(a)(2)(D)].

5

Case 6:10-cr-03029-GAF Document 59 Filed 07/19/11 Page 5 of 6

A-167
B. Statutory Factors Enumerated under Title 18, U.S.C., Section 3592(c)
i.

The death or injuries resulting in death, occurred during the commission or

attempted commission, of an offense under 18 U.S.C., § 1118 (murder by prisoner serving life
term) [18 U.S.C. § 3592(c)(1)];
ii.

Defendant Coonce has previously been convicted of 2 or more Federal or State

offenses punishable by a term of imprisonment of more than 1 year, committed on different
occasions, involving the infliction of, or attempted infliction of, serious bodily injury or death
upon another person [18 U.S.C. § 3592(c)(4)];
iii.

Defendant Coonce committed the offense in an especially heinous, cruel, or

depraved manner in that it involved torture or serious physical abuse to Victor Castro-Rodriguez
[18 U.S.C. § 3592(c)(6)];
iv.

Defendant Coonce committed the offense after substantial planning and

premeditation to cause the death of Victor Castro-Rodriguez [18 U.S.C. § 3592(c)(9)];
v.

The victim, Victor Castro-Rodriguez, was particularly vulnerable due to infirmity,

in this case, mental illness [18 U.S.C. § 3592(c)(11)].
A TRUE BILL
/s/
FOREPERSON OF THE GRAND JURY

/s/ Randall D. Eggert
RANDALL D. EGGERT, Bar #39404
Assistant United States Attorney

6

Case 6:10-cr-03029-GAF Document 59 Filed 07/19/11 Page 6 of 6

A-168

CERTIFICATE OF SERVICE
It is hereby certified that paper and electronic copies of this Appendix were dispatched to the
following on this 10th day of August, 2020
Francesco Valentini
United States Department of Justice
Criminal Division, Appellate Section
950 Pennsylvania Ave. NW, Room 1264
Washington, DC 20530
202-598-1227
Email: francesco.valentini@usdoj.gov
Solicitor General of the United States
Department of Justice, Room 5614
950 Pennsylvania Ave., N.W.
Washington D.C. 20530-0001
/s/Frederick A. Duchardt, Jr.
FREDERICK A. DUCHARDT, JR.

